                                                                              Appendix III




Review of Alternative Work
Arrangements, Overtime
Compensation, and COOP-Related
Activities at the SEC




                                                                                 September 28, 2011
                                                                                 Report No. 491

 Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
 Report No. 491
                                             Page 1
                                                   UNITED STA TES
                                 SECURITIES AND EXCHANGE COMMISSION
                                              WASHINGTON , D .C.    20549


       O .... ' CI!:O ..
'NS P I!:CT O R C I!:NERA L




                                           MEMORANDUM
                                                September 28, 2011

                To:           Cristin Fair, Acting Associate Executive Director, Office of Human
                                Resources
                              Jayne Seidman, Acting Associate Executive Director, Office of
                                Administrative Services
                              Barry D. Walters, Director/Chief FOIA Officer, Office of FOIA,
                                Records Management, and Security
                              Thomas A. Bayer, Director, Chief Information Officer, Office of
                                Information Technology

                From:         H. David Kotz, Inspector General, Office of Inspector General (OIG r#"t'.k-

                Subject:      Review of Alternative Work Arrangements, Overtime
                              Compensalion, and COOP-Relaled Activities al Ihe SEC, Report
                              No. 491

                This memorandum transmits the U.S. Securities and Exchange Commission
                OIG's final report detailing the results on our review of the SEC's alternative work
                arrangements, overtime compensation, and COOP-related activities. This review
                was conducted as part of our continuous effort to assess management of the
                Commission's programs and operations and as part of our annual audit plan.

                The final report contains 27 recommendations, which if fully implemented should
                enhance the Commission's alternative work schedule, overtime compensation,
                telework, and COOP programs. The respective offices concurred with all 27 of
                the report's recommendations. Your written response to the draft report is
                included in Appendix V.

                Within the next 45 days, please provide the OIG with a written corrective action
                plan that is designed to address the report's recommendations. The corrective
                action plan should include information such as the responsible official/point of
                contact, timeframes for completing required actions, and milestones identifying
                how you will address the recommendations.




             Review of Alternative Work Arrangements, Overtime Compensation, and COOP    September 28, 2011
             Report No. 491
                                                         Page ii
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our auditor during this review.

Attachment

cc:     James R. Burns, Deputy Chief of Staff, Office of the Chairman
        Luis A. Aguilar, Commissioner
        Troy A. Paredes, Commissioner
        Elisse B. Walter, Commissioner
        Jeff Heslop, Chief Operating Officer, Executive Director, Office of Chief of
          Operations




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page iii
Review of Alternative Work Arrangements,
Overtime Compensation, and COOP-Related
Activities at the SEC

                             Executive Summary
Background. Federal agencies have, in recent years, been directed to provide
employees with greater flexibilities in their work and expanded opportunities to
telework. In addition, agencies are now required to have continuity of operations
(COOP) plans and to incorporate telework into these plans.

With respect to flexible work schedules, President Clinton's memorandum of July
11, 1994, "Expanding Family-Friendly Work Arrangements in the Executive
Branch," directed the heads of all executive agencies to establish a program to
encourage and support the expansion of flexible family-friendly work
arrangements. In a subsequent memorandum, "Implementing Federal Family
Friendly Work Arrangements," dated June 21, 1996, President Clinton directed
the heads of executive agencies to review their personnel practices and develop
a plan of action to utilize the flexible policies in place and, to the extent feasible,
expand the ability to provide employees with flexible hours and telecommuting
opportunities.

In addition, federal legislation has focused on telework. For example, on
December 8, 2004, Congress enacted Public Law 108-447, which required the
SEC to certify within two months that telecommuting opportunities were made
available to 100 percent of the eligible workforce. The law also required the SEC
to provide quarterly reports to the U.S. House and Senate Committees on
Appropriations on the status of telecommuting programs, including the number of
federal employees eligible for, and participating in, such programs, and to
designate a telework coordinator responsible for overseeing the implementation
and operation of its telework programs. On December 9, 2010, the Telework
Enhancement Act of 2010 was enacted. This statute also required, among other
things, that within 180 days, executive agencies establish a telework policy
authorizing telework for all eligible employees, determine the eligibility of all
employees to participate in telework programs, and notify all employees of their
eligibility to telework.

Telework has also become an important part of COOP, which is an effort within
executive departments and agencies to ensure that primary mission-essential
functions (PMEF) continue to be performed during a wide range of emergencies,
including localized acts of nature, accidents, and technological or attack-related
emergencies. The Telework Enhancement Act of 2010 required agencies to
incorporate telework into their COOP plans.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page iv
Within the Securities and Exchange Commission (SEC or the Commission), the
Office of Human Resources (OHR) is responsible for developing, implementing,
and evaluating the Commission’s work/life programs, including alternative work
schedule programs and its telework program. Although the existing SEC
Personnel Operating Policies and Procedures (POPPS) Manual describes
alternative work schedules and telework, as well as overtime compensation for
employees, the material is outdated. OHR is developing a new handbook, the
Human Capital Directive, to replace the POPPS Manual. The 2007 collective
bargaining agreement (CBA) between the SEC and the National Treasury
Employees Union (NTEU) addresses alternative work schedules, telework, and
overtime compensation in detail and is applicable to all SEC bargaining unit
employees. According to OHR, the alternative work schedule programs
described in the CBA are also available to nonbargaining unit employees.

To facilitate its review of the SEC’s implementation and oversight of flexible work
schedule and telework initiatives, the OIG issued a survey to all SEC personnel
concerning alternative work schedules, telework, overtime compensation, and
COOP. The survey consisted of numerous yes/no and multiple-choice questions
and also included an opportunity for respondents to provide written feedback to
the OIG.

Objectives. The objectives of our review were to (1) examine how well the SEC
has implemented and oversees its alternative work schedule and telework
programs; (2) determine whether the SEC complies with applicable federal laws
and regulations and SEC policies and procedures pertaining to alternative work
schedules, telework, and overtime; and (3) assess the pertinent SEC information
technology capabilities and support for the SEC’s telework and COOP
programs.

Summary of Results. We reviewed data provided by OHR on SEC employees’
participation in alternative work schedule programs during fiscal years 2008
through 2010 to determine whether SEC employees were only working properly
authorized alternative work schedules. We found, however, that six alternative
work schedule programs in which SEC employees participated—3-day
workweek, flexible workweek, Maxiflex, 10-hour days biweekly, first 40-hour tours
of duty, and rotating shifts—were not among the alternative work schedules
included in the CBA or the POPPS Manual. We also obtained confirmation from
OHR that these options are not authorized for SEC personnel.

In addition to the three types of alternative work schedules authorized for SEC
employees—Flexitour, 5-4/9 compressed, and 10-4 compressed—the Office of
Personnel Management (OPM) Handbook on Alternative Work Schedules
describes other types of alternative work schedules that federal agencies may
choose to implement. We determined that some federal agencies are allowing
their employees more flexibility with respect to their arrival and departure times
and the length of workdays within the workweek or pay period by implementing

Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page v
work schedule options such as a gliding schedule, variable day schedule, or
variable week schedule. We determined that, due to the benefits that alternative
work schedule options provide to employees, the SEC might benefit from making
additional flexible work schedule options available to its employees.

Our review also found that the SEC does not have a comprehensive manual that
addresses alternative work schedule options that are available to all employees.
The CBA, which applies to both nonprofessional and professional SEC
employees, but not to managers, supervisors, and certain other excluded
employees, references only three types of alternative work schedules: Flexitour
with credit hours, compressed 5-4/9, and compressed 4-10. The POPPS Manual
addresses only two alternative work schedule options, Flexitour and 5/4-9
compressed, and the pertinent material has not been updated since January 20,
1995. Moreover, the POPPS Manual provision addressing Flexitour schedules
and credit hours is inconsistent with the Flexitour provisions of the CBA.
Additionally, the POPPS Manual provision addressing compressed work
schedules is not only outdated, but contains significant inconsistencies with the
CBA. We further determined that the SEC has no official form for employees to
use when requesting to participate in an alternative work schedule. We also
found that little training on alternative work schedules is available to SEC
employees and that this lack of training may have contributed to the use of
unauthorized alternative work schedules by SEC employees.

With respect to overtime compensation, we found that SEC employees generally
may receive compensation for overtime hours worked in the form of credit hours,
overtime pay, or compensatory time off, with credit hours being the most widely
used method of overtime compensation. Our review found that the current CBA
language allows employees who work a conforming schedule (i.e., one that
aligns with the office’s official business hours) is inconsistent with federal law
providing that credit hours are available only to employees who work flexible
schedules. We also found that while the employees of the Senior Executive
Service (SES) are prohibited by federal regulation from earning credit hours,
Senior Officers at the SEC (who are essentially equivalent to SES members) are
permitted to, and do earn credit hours, although the SEC has no official policy
addressing this issue. Our review also found that while Senior Officers are
prohibited from earning compensatory time off except for religious purposes, one
Senior Officer did earn compensatory time off for other than religious purposes
during fiscal years 2008 through 2010.

In addition, our review found that while many SEC employees are compensated
for overtime work in some manner, other employees are not being compensated
for overtime work and are, therefore, volunteering their time. Many of the
comments received in response to our work/life survey related to voluntary
overtime. In those comments, some employees expressed the belief that
uncompensated overtime is unfair to employees, while other employees
indicated that they view voluntary overtime as part of the job or that taking pride

Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page vi
in their work and professionalism motivates them to work late. We found that a
1992 provision of the POPPS Manual provided that employees in professional or
supervisory positions are expected to have sufficient interest in completing their
assignments on a timely basis and keeping their workload reasonably current by
performing voluntary work outside of regular work hours on their own initiative
whenever necessary. We noted, however, that with respect to bargaining unit
employees, this provision appeared to be superseded by the 2007 CBA, which
provided that the SEC will not expect or require employees to donate time in lieu
of proper overtime compensation. Further, we found no SEC policy document
that superseded the 1992 POPPS provision for nonbargaining unit employees,
and we found inconsistent views among OHR senior staff with respect to the
appropriateness or legality of management’s expectation that employees who are
exempt from the overtime pay requirements of the Fair Labor Standards Act work
some amount of uncompensated overtime.

Our review determined that the SEC’s promotional and training activities related
to telework are inadequate. Specifically, we determined that an assessment by
the federal Telework Advisory Group of the SEC’s telework policy completed in
June 2010 found the policy lacked clarity and contained some ambiguity and
redundancy. We found that new SEC employees receive little information about
telework during orientation, and 57 percent of the respondents to our Work/Life
survey believed that the SEC’s advertisement of its work/life programs could, or
should be, improved, with some comments specifically mentioning the lack of
information regarding telework. The work/life survey also identified suggested
improvements to the SEC’s current guidance concerning telework. Further, our
analysis of the training materials currently being used for SEC telework courses
revealed some gaps in their content, particularly with respect to the teleworking
provisions of the CBA.

In addition, our review found that as of December 31, 2010, 125 SEC employees
engaged in telework three or more days per week, with 68 of these employees
being located in the SEC headquarters facility. We learned, however, that the
majority of these frequent teleworkers, including some who telework five days a
week, still have private offices at SEC headquarters, notwithstanding that a
stated purpose of federal telework programs is to reduce real estate and energy
costs and promote management efficiencies.

In reviewing the use of telework at the SEC, we analyzed the telework data that
the SEC reported to OPM for calendar years 2008 and 2009 and compared the
reported data to other telework data maintained by OHR. We found
inconsistencies in the data that were provided to us, and we determined that the
reports produced by the SEC for OPM do not track the number of employees
whose telework agreements have been denied or terminated. We also noted
that the Telework Enhancement Act of 2010 establishes additional requirements
for OPM reports based on agency-provided data and that the SEC will be unable
to provide the necessary data to OPM without a system for gathering timely and

Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page vii
accurate information on telework. While we found that the SEC’s Telework
Coordinator has established a Telework program work plan for fiscal year 2011
that includes addressing OPM reporting requirements, the Telework Coordinator
has not developed explicit goals and objectives to ensure that the elements of
the plan are achieved or any goals and objectives for increasing telework
participation.

With regard to telework as it relates to COOP, we found that nearly half—49
percent—of SEC COOP mission-essential personnel do not have telework
agreements in place. This lack of telework agreements indicates that these
employees may not be teleworking, even on an ad hoc basis, and may not be
routinely practicing their remote access capabilities. We also determined that the
telework agreements of mission-essential personnel do not include work
expectations related to emergency telework and that the SEC does not require its
mission-essential personnel to enter into telework agreements.

During our review, we obtained information pertinent to the SEC’s participation in
COOP exercises and, in particular, reviewed the results of the SEC’s test of its
telework capability during a 2009 COOP exercise. We found that, in addition to
nearly half of the SEC’s mission-essential personnel lacking telework
agreements, some SEC mission-essential personnel participating in COOP
exercises are not required to remotely access the SEC’s network during such
exercises. We concluded that a significant number of SEC mission-essential
personnel are not likely routinely practicing their remote access capabilities,
which could impair their ability to perform mission-essential functions during
emergency situations.

We further determined that although telework is mentioned in the SEC’s
headquarters and regional COOP plans, the telework provisions in the COOP
plan were not as specific and detailed as those contained in the SEC’s April 2009
Pandemic Influenza Preparedness Plan. 1 Under OPM guidance, telework must
be part of all agency emergency planning, and management must be committed
to implementing telework as broadly as possible to take full advantage of
telework for emergency purposes. We found that the current SEC COOP Plan
emphasized the use of relocation facilities rather than telework and that the
COOP Plan’s lack of emphasis on telework could hinder effective planning and
preparation for carrying out essential functions during emergencies and
catastrophic events. 2



1
  In connection with its annual continuity exercises, the SEC has advised us that FEMA has examined the
SEC’s COOP Plan multiple times and found it to be in compliance with applicable continuity planning
requirements, notably those in Federal Continuity Directive I (issued by the Department of Homeland
Security in February 2008).
2
  Although telework is not necessarily preferable to relocation to alternative facilities in particular emergency
situations, it is an important continuity-support capability that should be taken fully into account in the SEC’s
emergency planning.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                      September 28, 2011
Report No. 491
                                                  Page viii
In addition, our examination of the regional office COOP plans revealed that
none of those plans contain all the elements of a viable continuity plan and that
some of the plans were outdated. We also determined that the SEC’s regional
office COOP plans, like the Commission-wide COOP Plan, do not fully address
the role of telework.

Finally, we determined that although the SEC has a variety of remote access
tools for teleworkers to use, the Office of Information Technology (OIT) has not
tested the maximum user limits of the SEC’s remote access technology. The
failure to conduct stress tests of remote access capabilities gives rise to
concerns that increased use of remote access devices and systems could stress
SEC remote access resources and the SEC network and strain help desk
resources. As a result, SEC users working off-site might be unable to access the
system and necessary applications and work materials, and the Commission’s
ability to function effectively, particularly during emergencies or catastrophic
events, would be impaired.

Summary of Recommendations. Our review determined that several
improvements are needed to the SEC’s alternative work schedule, overtime,
telework, and COOP programs.

Specifically, we recommend the following:

(1)    OHR should take necessary actions to ensure that employees do
       not work unauthorized alternative work schedules, including required
       revisions to the CBA, and steps to ensure that all Commission
       managers and staff are fully informed about which alternative work
       schedules are authorized.

(2)    OHR should ensure that the (a) new Human Capital Directive
       addresses all alternative work schedules available to SEC
       employees, and (b) contents of the Human Capital Directive are and
       remain consistent with the alternative work schedule components of
       the CBA.

(3)    OHR should ensure that the new Human Capital Directive
       addresses all SEC employees—supervisory, managerial,
       professional, nonprofessional, bargaining unit, and nonbargaining
       unit employees—and contains up-to-date information on all
       alternative work schedule programs authorized by the Commission.

(4)    OHR should (a) provide comprehensive training to all employees
       and managers on all available alternative work schedule programs,
       and (b) make up-to-date information on alternative work schedules
       and policy available electronically to all employees on the SEC


Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page ix
       intranet site and periodically notify employees of its availability and
       location.

(5)    OHR should develop an alternative work schedule request form that
       contains sections for the requesting employee’s information and
       certification; the type of alternative work schedule requested,
       including specific work hours and, if applicable, workdays; the
       immediate supervisor’s approval; and, if applicable, the approving
       official’s decision.

(6)    OHR, in developing the new Human Capital Directive, should work
       with NTEU to determine whether additional alternative work
       schedules, such as the gliding, variable day, variable week, three-
       day workweek, and Maxiflex options described in OPM’s Handbook
       on Alternative Work Schedules, should be adopted as options for
       SEC employees.

(7)    OHR should include in the new Human Capital Directive clear, up-
       to-date information on the laws, policies, guidelines, and procedures
       related to credit hours, compensatory time off, payment for overtime
       worked, and voluntary and uncompensated services.

(8)    OHR should negotiate revisions to the language in the CBA between
       the Commission and the NTEU with respect to the use of credit
       hours by employees working conforming schedules, ensuring that
       the revised language conforms with applicable law.

(9)    OHR should institute appropriate controls to ensure that Senior
       Officers do not receive compensatory time off.

(10) OHR should consult with the Office of the General Counsel and
     OPM to determine whether the SEC should adopt an official policy
     that addresses whether Senior Officers are permitted to earn credit
     hours.

(11) OHR should ensure that the recommendations made by the
     Telework Advisory Group in its assessment of the SEC’s telework
     policy are considered, including the recommendation that OHR use
     the Telework Advisory Group’s telework policy evaluation checklist
     as a resource to further develop the Commission’s telework policy.

(12) OHR should revise the one-page overview of telework provided to
     new employees to include website references for telework
     resources; the name, telephone number, and e-mail address of the
     SEC Telework Coordinator; and page references to article 11,
     Telework Program, of the 2007 CBA.

Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page x
(13) OHR should provide comprehensive telework training sessions to
     SEC employees that address, among other things, telework tools;
     policies and procedures for discontinuing telework; what happens
     when an employee is promoted, reassigned, or detailed; duty station
     policy; employee availability during telework; employee personal
     computer usage; mandatory telework-related forms; office supplies
     and equipment; and protection of government records.

(14) OHR should provide comprehensive telework training sessions to
     SEC managers that address, among other things, telework tools,
     policies, and procedures related to managers’ approval and denial of
     employee telework, managers’ right to direct employees to report to
     work on their telework day, and managers’ ability to suspend or
     terminate telework.

(15) OHR should require training and recertification for current
     teleworkers and their managers at least every two years.

(16) OHR should send administrative notice e-mails to all SEC
     employees twice each year reminding them of the Commission’s
     telework options and the benefits of participating in the program.

(17) The Office of Administrative Services should establish and enforce
     procedures to ensure that employees who telework three or more
     days a week do not maintain private offices, but rather share office
     space.

(18) OHR should develop an improved telework database that will track
     the processing of telework agreements and store telework
     agreements to ensure that the data it reports to OPM are reliable
     and valid.

(19) OHR should require that SEC managers provide the Telework
     Coordinator with copies of denied or terminated telework
     agreements to facilitate tracking of such agreements.

(20) OHR should develop goals and objectives for accomplishing the
     work listed in the telework program work plan for fiscal year 2011
     and for increasing telework participation by SEC employees.

(21) OHR should establish a process to monitor progress in meeting the
     Commission’s telework-related goals and objectives and, if the goals
     and objectives are not being met, OHR should take action to identify
     and eliminate barriers to meeting the goals and objectives.



Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page xi
(22) Consistent with governing Federal Emergency Management Agency
     (FEMA) and OPM directives, and the SEC CBA, OHR, in
     conjunction with the Office of Freedom of Information Act (FOIA),
     Records Management, and Security, should require all mission-
     essential personnel to enter into telework agreements that
     specifically allow them to conduct their continuity of operations
     responsibilities and the mission-essential functions they will perform
     during emergencies or agency closures.

(23) Consistent with governing FEMA and OPM directives and the SEC
     CBA, OHR, in conjunction with the Office of FOIA, Records
     Management, and Security, should require mission-essential
     personnel who have telework agreements to telework periodically to
     practice their assigned mission-essential and primary mission-
     essential functions.

(24) The Office of FOIA, Records Management, and Security should
     update the continuity communications section of the SEC’s COOP
     Plan and expand it to expressly address conducting essential
     functions by telework consistent with governing FEMA and OPM
     directives and the SEC CBA, and include subsections addressing
     telework capability, training staff to telework effectively, and
     exercising agency telework competence as detailed in the SEC’s
     Pandemic Influenza Preparedness Plan.

(25) The Office of FOIA, Records Management, and Security should
     instruct regional office directors to revise their regional office COOP
     plan to address all the essential elements of viable continuity
     capability specified by FEMA and, to ensure that the plans are
     reviewed and modified timely and presented in a standard format,
     the Office of Security Services should establish timelines and
     submission criteria for the revised plans.

(26) The Office of FOIA, Records Management, and Security should
     instruct the directors of the appropriate regional offices to include in
     their COOP plans strategies for supporting headquarters essential
     functions during devolution of control.

(27) OIT should coordinate with other SEC offices and divisions to
     perform server stress tests, which should incorporate a variety of
     applications used with remote access.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page xii
TABLE OF CONTENTS
Executive Summary ............................................................................................... iv

Table of Contents .................................................................................................. xiii

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 5

Findings and Recommendations ......................................................................... 6
     Finding 1: A Number of SEC Employees Are Working Unauthorized Work
     Schedules, and SEC Policy on Alternative Work Schedules Is Poorly
     Documented and Communicated ....................................................................... 6
                  Recommendation 1..................................................................... 12
                  Recommendation 2..................................................................... 13
                  Recommendation 3..................................................................... 13
                  Recommendation 4..................................................................... 13
                  Recommendation 5..................................................................... 14
                  Recommendation 6..................................................................... 14

         Finding 2: The SEC Lacks Clear Guidance on Overtime Compensation
         and Uncompensated Services ......................................................................... 15
                      Recommendation 7..................................................................... 21
                      Recommendation 8..................................................................... 21
                      Recommendation 9..................................................................... 22
                      Recommendation 10................................................................... 22

         Finding 3: Promotion and Training Activities for the SEC Telework
         Program Are Inadequate ................................................................................. 22
                      Recommendation 11................................................................... 27
                      Recommendation 12................................................................... 28
                      Recommendation 13................................................................... 28
                      Recommendation 14................................................................... 28
                      Recommendation 15................................................................... 29
                      Recommendation 16................................................................... 29

         Finding 4: The Majority of Frequent Teleworkers at SEC Headquarters
         Have Private Offices ........................................................................................ 29
                      Recommendation 17................................................................... 31




Review of Alternative Work Arrangements, Overtime Compensation, and COOP                      September 28, 2011
Report No. 491
                                                    Page xiii
         Finding 5: The SEC Telework Data Reported to OPM Are Inconsistent
         With Other Telework Data Maintained by OHR ................................................ 31
                      Recommendation 18................................................................... 36
                      Recommendation 19................................................................... 36
                      Recommendation 20................................................................... 37
                      Recommendation 21................................................................... 37

         Finding 6: Some SEC Mission-Essential Personnel Lack Telework
         Agreements ...................................................................................................... 37
                      Recommendation 22................................................................... 43
                      Recommendation 23................................................................... 43

         Finding 7: The SEC COOP Plan Does Not Comprehensively Address the
         Role of Telework .............................................................................................. 44
                      Recommendation 24................................................................... 46

         Finding 8: The SEC’s Regional Offices Lack Viable COOP Plans .................. 46
                      Recommendation 25................................................................... 51
                      Recommendation 26................................................................... 51

         Finding 9: The SEC Has Not Tested the Maximum User Limit for Remote
         Access to the SEC Network ............................................................................. 52
                      Recommendation 27................................................................... 54

Appendices
    Appendix I: Abbreviations................................................................................ 55
    Appendix II: Scope and Methodology............................................................... 56
    Appendix III: Criteria ......................................................................................... 58
    Appendix IV: List of Recommendations ........................................................... 61
    Appendix V: Management’s Comments .......................................................... 67
    Appendix VI: OIG Response to Management’s Comments.............................. 72

Tables
     Table 1: SEC Employees’ Use of Alternative Work Schedules Other Than
     Flexitour, Fiscal Years 2008-2010...................................................................... 9
     Table 2: Hours of Overtime Compensation Received by SEC Employees,
     Fiscal Years 2008–2010 .................................................................................. 16
     Table 3: SEC Telework Participation Data Reported to OPM and
     Telework Participation Data Provided to the OIG, Calendar Years 2008
     and 2009 ......................................................................................................... 33
     Table 4: Elements of Viable Continuity Capability in SEC Regional
     Offices’ COOP Plans ....................................................................................... 49




Review of Alternative Work Arrangements, Overtime Compensation, and COOP                       September 28, 2011
Report No. 491
                                                    Page xiv
        Table 5: SEC Remote Access Tools for Teleworkers .................................... 52
        Table 6: OIT Help Desk Failure Tickets Related to Remote Access
        Technology, Fiscal Year 2010 ......................................................................... 53




Review of Alternative Work Arrangements, Overtime Compensation, and COOP              September 28, 2011
Report No. 491
                                               Page xv
                   Background and Objectives

Background
In recent decades, federal agencies have been directed to provide employees
with greater flexibility in their work schedules and expanded opportunities to
telework. In addition, federal law requires agencies to incorporate telework into
their continuity of operations (COOP) plans.

SEC Work/Life Policy Documents

Within the Securities and Exchange Commission (SEC or the Commission), the
Office of Human Resources (OHR) is responsible for developing, implementing,
and evaluating the Commission’s work/life programs, including alternative work
schedule programs and its telework program. Although the existing SEC
Personnel Operating Policies and Procedures (POPPS) Manual describes
alternative work schedules and telework, as well as overtime compensation for
employees, the material is outdated. OHR is developing a new handbook to
replace the POPPS Manual. The 2007 collective bargaining agreement (CBA)
between the SEC and the National Treasury Employees Union (NTEU)
addresses alternative work schedules, telework, and overtime compensation in
detail and is applicable to all SEC bargaining unit employees. According to OHR,
the alternative work schedules described in the CBA are also available to
nonbargaining unit employees.

Work/Life Legislation, Directives, and Guidance

Alternative Work Schedules. The Federal Employees Flexible and
Compressed Work Schedules Act of 1982 authorized, but did not require,
executive agencies to establish programs that allow the use of flexible work
schedules, including compressed work schedules. 3 On July 11, 1994, President
William J. Clinton issued a memorandum directing the head of each executive
department or agency to “establish a program to encourage and support the
expansion of flexible family-friendly work arrangements,” including job sharing,
part-time employment, alternative work schedules, and telework. The
memorandum stated that implementation of flexible work arrangements was
necessary in order for the federal government to recruit and retain a workforce
“that will provide the highest quality of service to the American people.” The
memorandum also requested that independent agencies “adhere to this directive
to the extent permitted by law.” 4

3
 5 U.S.C. § 6120 et seq.
4
 Memorandum from President William J. Clinton for the Heads of Executive Departments and Agencies,
Expanding Family-Friendly Work Arrangements in the Executive Branch (July 11, 1994).
Review of Alternative Work Arrangements, Overtime Compensation, and COOP            September 28, 2011
Report No. 491
                                              Page 1
Following up on the July 1994 memorandum, President Clinton issued a
memorandum on June 21, 1996, that directed heads of executive departments
and agencies “to review their personnel practices and develop a plan of action to
utilize the flexible policies already in place” and, to the extent feasible, expand
their ability to provide their employees with, among other things, flexible hours
and opportunities to telecommute. 5 Although the decision to establish alternative
work schedule programs is at the discretion of agency heads, “this discretion is
subject to the obligation to negotiate with the exclusive representative(s) of
bargaining unit employees.” 6 NTEU is the exclusive representative of SEC
bargaining unit employees, and article 7 of the 2007 CBA between the SEC and
the union lays out the details of the SEC’s alternative work schedule program,
which includes both flexible work schedules and two variations of compressed
work schedules. The CBA also addresses credit hours, which may be earned by
employees who work flexible schedules.

Telework. On December 8, 2004, Congress enacted Public Law 108-447, which
required that the SEC certify within two months “that telecommuting opportunities
are made available to 100 percent of the eligible workforce.” The law also
required that the SEC provide quarterly reports to the Committees on
Appropriations on “the status of telecommuting programs, including the number
of Federal employees eligible for, and participating in, such programs,” and that it
designate a telework coordinator responsible for overseeing the implementation
and operation of its telework programs. 7

On December 9, 2010, the Telework Enhancement Act of 2010 was enacted. It
defined telework as an arrangement under which an employee performs his or
her duties, responsibilities, and other authorized activities “from an approved
worksite other than the location from which the employee would otherwise work.”
The law required that within 180 days executive agencies establish a telework
policy “under which eligible employees of the agency may be authorized to
telework,” determine the eligibility of all employees to participate in telework, and
notify all employees of their eligibility to telework. Other requirements of the law
included the following:

    •   Any employee who participates in telework must have a written
        telework agreement with his or her manager.
    •   Agency heads must ensure that interactive telework training is
        provided to employees eligible to telework and to their managers.
    •   Employees must successfully complete interactive telework training
        before they enter into a written telework agreement.
    •   Within 18 months and annually thereafter, the Office of Personnel
        Management (OPM) must report to Congress, the Comptroller

5
  Memorandum from President William J. Clinton for the Heads of Executive Departments and Agencies,
Implementing Federal Family Friendly Work Arrangements (June 24, 1996).
6
  OPM, Handbook on Alternative Work Schedules, http://www2.opm.gov/oca/aws/index.asp#Introduction.
7
  Pub. L. No. 108-447, div. B, § 622.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP           September 28, 2011
Report No. 491
                                              Page 2
         General, and the Office of Management and Budget on telework
         participation in each executive agency and each agency’s progress
         in meeting its telework participation goal.
    •    Agencies must incorporate telework into their COOP plans.

The act assigns OPM responsibility for providing telework policy and policy
guidance to agencies and for helping them establish appropriate teleworking
goals. 8

Role of Telework in COOP. COOP, as defined in National Security Presidential
Directive-51/Homeland Security Presidential Directive-20, is an effort within
individual executive departments and agencies to ensure that mission-essential
functions (MEF) and primary mission-essential functions (PMEF) continue to be
performed during a wide range of emergencies, including localized acts of
nature, accidents, and technological or attack-related emergencies. 9 Each
agency is required to have a COOP plan, which, according to the Federal
Emergency Management Agency (FEMA), is to serve as its roadmap for
implementing and managing its COOP program. 10 Personnel identified as
mission-essential (or mission critical) are expected to remain in contact with the
agency at all times during any emergency closure and “may be called to work
during emergencies dealing with national security, extended emergencies, or
other unique situations.” 11

As previously noted, the Telework Enhancement Act of 2010 requires agencies
to incorporate telework into their COOP plans. In addition, OPM’s Guide to
Telework in the Federal Government encourages federal agency management to
implement remote work arrangements as broadly as possible to take full
advantage of telework for emergency purposes and ensure, among other things,
that equipment and technology have been tested and that employees are
comfortable with technology and communications methods. 12 The SEC does not
require its mission-essential personnel to enter into telework agreements.
However, an October 16, 2007, memorandum from the former SEC Executive
Director to division directors and office heads approved telework for all mission-
essential personnel during COOP situations without requiring that they have
telework agreements in place. In addition, the Telework Enhancement Act of

8
  Telework Enhancement Act of 2010, Pub. L. No. 111-292.
9
  National Security Presidential Directive-51/Homeland Security Presidential Directive-20, “National
Continuity Policy,” was issued on May 4, 2007, by President George W. Bush. It emphasizes the
importance of a comprehensive national program involving all government levels and the private sector;
prescribes continuity requirements for all executive departments and agencies; and provides continuity
guidance for states, territories, tribal and local governments, and private sector organizations. The National
Continuity Policy Implementation Plan was issued in August 2007, and builds upon the National Continuity
Policy and provides guidance to executive departments and agencies on appropriately identifying and
carrying out their PMEFs. See http://www.fema.gov/pdf/about/org/ncp/ncpip.pdf.
10
   http://www.fema.gov/about/org/ncp/coop/index.shtm.
11
   OPM, A Federal Employee’s Emergency Guide, p. 5,
http://www.opm.gov/emergency/pdf/employeesguide.pdf.
12
   OPM, A Guide to Telework in the Federal Government (April 2011), p. 33,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                  Page 3
2010 provides that “[d]uring any period that an executive agency is operating
under a COOP plan, that plan shall supersede any telework policy.” 13

Compensatory Time Off. OPM defines compensatory time off as “[t]ime off with
pay in lieu of overtime pay for irregular or authorized overtime work . . . .” 14 Not
all employees who work overtime hours are eligible to receive compensatory time
off. For example, consistent with OPM guidance and regulation for members of
the Senior Executive Service, 15 the SEC does not permit Senior Officer (SO)
employees to earn compensatory time off except for religious purposes. In
addition, employees cannot earn compensatory time off if the value of the time
off would cause their compensation to exceed an amount equivalent to the salary
of a GS-15 step 10 employee. 16

The Antideficiency Act prohibits any officer or employee of the federal
government from accepting voluntary services. 17 Some SEC employees have
indicated that they are expected to work “voluntary overtime” despite this
prohibition. Although the POPPS Manual states that professional or supervisory
employees are expected to perform voluntary work outside of their regular work
hours in order to complete regular assignments on time, 18 article 10 of the 2007
CBA states that the employer will not expect or require employees to donate time
in lieu of compensation for overtime work. The CBA, however, states that it
applies only to bargaining unit employees. Moreover, the CBA does not state
that covered employees cannot voluntarily donate time beyond their regular work
hours.

Work/Life Programs Survey

On December 29, 2010, with the assistance of the Office of Information
Technology (OIT), we released a survey to all SEC employees that contained
questions about SEC work/life programs. The survey addressed telework
(including COOP-related telework), alternative work schedules, and overtime
compensation. It consisted of 45 yes/no and multiple-choice questions and an
open-ended section in which respondents could provide detailed feedback. Our
purpose in administering the survey was to obtain information on the
effectiveness and efficiency of SEC work/life programs, including aspects of the
telework program related to COOP and OIT technical support for remote access.
Survey response was voluntary, and respondents were anonymous unless they
elected to identify themselves to us. We encouraged respondents to provide
written comments, where applicable, to support and explain their responses. By
January 12, 2011, the closing date of the survey, we had received responses

13
   Pub. L. No. 111-292, 5 U.S.C. § 6504(d)(2).
14
   http://www.opm.gov/oca/pay/html/comp.htm.
15
   http://www.opm.gov/ses/about_ses/faqs.asp#, p. 4.
16
   See 5 U.S.C. § 5547.
17
   31 U.S.C. § 1342.
18
   SEC Personnel Operating Policies and Procedures (POPPS Manual), SECM 6-1, ch. 630.B, § 4(A)(1)
(Jan. 17, 1992).
Review of Alternative Work Arrangements, Overtime Compensation, and COOP         September 28, 2011
Report No. 491
                                             Page 4
from 1,917 of 3,919 SEC employees, as well as numerous written comments. In
addition, 104 of the respondents asked to be contacted for an interview to further
discuss their views.

Objectives

The objectives of this review were to examine the SEC’s

        •   implementation and oversight of its telework and alternative
            work schedule programs;
        •   compliance with applicable federal and Commission policies
            and procedures pertaining to telework, alternative work
            schedules, and overtime; and
        •   information technology capabilities and support for the telework
            and COOP programs.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                            Page 5
              Findings and Recommendations

Finding 1: A Number of SEC Employees Are
Working Unauthorized Work Schedules, and SEC
Policy on Alternative Work Schedules Is Poorly
Documented and Communicated
                A number of SEC employees are using alternative
                work schedules that have not been authorized by the
                SEC. In addition, the SEC lacks comprehensive
                written policies and procedures related to alternative
                work schedules. Further, training on alternative work
                schedules provided by OHR to employees and
                managers is minimal and inadequate.

Alternative Work Schedules
By law, federal agencies are authorized to establish programs that allow the use
of flexible work schedules. 19 The OPM Handbook on Alternative Work
Schedules provides guidance to agencies on the administration of alternative
work schedules. It notes that although the decision to establish alternative work
programs is at the discretion of the head of each agency, “this discretion is
subject to the obligation to negotiate with the exclusive representative(s) of
bargaining unit employees.” 20

At the SEC, the OHR Office of Labor and Employee Relations manages,
administers, and establishes policies for the Commission’s alternative work
schedule programs in negotiation with NTEU, which is the exclusive
representative of SEC bargaining unit employees. 21 Article 7 of the 2007 CBA
between the SEC and NTEU addresses work schedules, including alternative
work schedules. 22 In addition, two chapters of the POPPS Manual address
alternative work schedules. Chapter 610.A addresses Flexitour schedules and
credit hours, and chapter 610.C addresses compressed work schedules. Both
chapters are dated January 20, 1995.

OPM’s definition of “alternative work schedule” includes both flexible work
schedules and compressed work schedules. The OPM Handbook on Alternative
Work Schedules defines a flexible work schedule as meaning the following:
19
   5 U.S.C. § 6122.
20
   OPM, Handbook on Alternative Work Schedules (OPM Handbook),
http://www2.opm.gov/oca/aws/index.asp#Introduction.
21
   Collective Bargaining Agreement Between the United States Securities and Exchange Commission and
the National Treasury Employees Union (2007) (CBA), article 1, § 1.
22
   CBA, art. 7, “Work Schedules,” pp. 23–37.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP            September 28, 2011
Report No. 491
                                              Page 6
         (1) in the case of a full-time employee, . . . an 80-hour biweekly
         basic work requirement that allows an employee to determine his or
         her own schedule within the limits set by the agency; and
         (2) in the case of a part-time employee, . . . a biweekly basic work
         requirement of less than 80 hours that allows an employee to
         determine his or her own schedule within the limits set by the
         agency. 23

The handbook defines a compressed work schedule as meaning the following:

         (1) in the case of a full-time employee, an 80-hour biweekly basic
         work requirement that is scheduled by an agency for less than 10
         workdays; and
         (2) in the case of a part-time employee, a biweekly basic work
         requirement of less than 80 hours that is scheduled by an agency
         for less than 10 workdays and that may require the employee to
         work more than 8 hours in a day. 24

The SEC has authorized use of three types of alternative work schedules: a
flexible schedule, known as Flexitour; a 5/4-9 compressed schedule; and a 4-10
compressed schedule. 25 These three alternative schedules, and others, are
described below.

SEC Employees’ Use of Alternative Work Schedules
OHR provided us with data on SEC employees’ use of alternative work
schedules in fiscal years 2008 through 2010. According to the data, which are
summarized in table 1, SEC employees used the following eight types of
alternative work schedules over the three-year period:

     •   5/4-9 compressed schedule. Employees work eight 9-hour days
         and one 8-hour day during each 80-hour biweekly pay period.
         Employees must be present during their office’s designated core
         hours26 and may not earn or use credit hours. For part-time
         employees, the number of hours worked per week and the number
         of hours in each biweekly pay period vary.

     •   3-day workweek. Full-time employees work 13 hours and 20
         minutes a day, for a total of 40 hours a week, during each 80-hour
         biweekly pay period. For part-time employees, the number of hours
         worked per week and the number of hours in each biweekly pay
         period vary.

23
   OPM Handbook, http://www2.opm.gov/oca/aws/html/define.asp.
24
   OPM Handbook, http://www2.opm.gov/oca/aws/html/define.asp.
25
   See CBA, art. 7, “Work Schedules.”
26
   Core hours are the hours during which full-time employees are required to be at work.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                 September 28, 2011
Report No. 491
                                                Page 7
     •   4-10 compressed schedule. Full-time employees work 10 hours a
         day, four days a week, during each 80-hour biweekly pay period.
         Employees must be present during their office’s designated core
         hours and may not earn or use credit hours. For part-time
         employees, the number of hours worked per week and the number
         of hours in each biweekly pay period vary.

     •   Flexible workweek. Full-time employees work 40 hours each week
         and 80 hours each pay period, regardless of the number of hours
         worked per day. Employees vary their arrival and departure times
         by earning and using credit hours.

     •   Maxiflex. Full-time employees work 80 hours during each biweekly
         pay period on a schedule that contains core hours on fewer than 10
         workdays in the biweekly pay period. Employees may vary the
         number of hours worked on a given workday or the number of
         hours worked each week within limits established for the
         employee’s organization.

     •   10-hour days biweekly. Full-time employees must work 10 hours a
         day and 80 hours during each biweekly pay period.

     •   First 40-hour tours of duty. All work performed by an employee
         within the first 40 hours is considered regularly scheduled work for
         premium pay and hours of duty purposes. Any additional hours of
         officially ordered or approved work within the administrative
         workweek are considered overtime. (This type of alternative
         schedule may be permitted for employees for whom it is not
         practical to establish a regular schedule of definite hours of duty for
         each workday of a regularly scheduled administrative workweek.) 27

     •   Rotating shift. Employees have work schedules with hours that
         change at prescribed intervals.

OHR also informed us that in addition to the above-listed schedules, many SEC
employees also used a flexible alternative work schedule known as Flexitour.
Full-time employees working Flexitour schedules work eight hours a day,
Monday through Friday. Those eight hours must include the office’s core hours,
but employees on Flexitour schedules may request arrival and departure times
within established flexible bands of time that do not coincide with the office’s
official business hours. Employees on Flexitour schedules are eligible for credit
hours.


27
  A regularly scheduled administrative workweek is the period an employee is regularly scheduled to work
within an administrative workweek. 5 C.F.R. § 610.102. A basic workweek is the officially prescribed days
and hours for which a full-time employee is entitled to basic pay. 5 C.F.R. § 532.501.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP               September 28, 2011
Report No. 491
                                               Page 8
Table 1: SEC Employees’ Use of Alternative Work Schedules Other Than
Flexitour, Fiscal Years 2008–2010
      Alternate Work            SEC Employees           SEC Employees              SEC Employees
   Schedule Program            Fiscal Year 2008        Fiscal Year 2009           Fiscal Year 2010
  5-4/9 compressed
                                             1,757                   1,617                   1,691
 schedule
  3-day workweek                                  2                       1                      0
  4-10 compressed
                                               132                     156                     165
 schedule

  Flexible workweek                               0                       0                      2

  Maxiflex                                       12                      12                     10
   10-hour day(s)
 biweekly, full- or part-                         5                       5                      4
 time
   First 40-hour tours of
                                                 16                      10                      9
 duty
  Rotating shift                                  1                       1                      1
             Total                           1,925                   1,802                   1,882
Source: SEC Office of Inspector General (OIG) analysis of data provided by OHR.

As noted above, the SEC authorizes only three types of alternative work
schedules, including Flexitour. However, the OHR data in table 1 show that, in
addition to Flexitour, SEC employees used eight types of alternative work
schedules in fiscal years 2008 through 2010. After reviewing the data provided
by OHR to determine whether all the alternative work schedule codes
represented in the data were for valid, SEC-authorized programs, we determined
that six of the alternative work programs in which SEC employees participated—
3-day workweek, flexible workweek, Maxiflex, 10-hour days biweekly, first 40-
hour tours of duty, and rotating shifts—are not among the alternative work
schedules included in the CBA or POPPS Manual. We also obtained
confirmation from OHR that these options are not authorized for SEC employees.

Availability of Additional Alternative Work Schedules
In addition to the three types of alternative work schedules authorized for SEC
employees—Flexitour, 5-4/9 compressed, and 10-4 compressed—and the five
unauthorized types described above, the OPM Handbook on Alternative Work
Schedules describes other alternative work schedules that federal agencies
might choose to implement. For example, the handbook describes the following
three additional flexible work schedule options:

    •   Gliding schedule. Full-time employees have a basic work
        requirement of 8 hours a day and 40 hours a week but may vary
        their arrival and departure times on a daily basis within the
        organization’s established flexible hours.

Review of Alternative Work Arrangements, Overtime Compensation, and COOP             September 28, 2011
Report No. 491
                                               Page 9
     •   Variable day schedule. Full-time employees have a basic work
         requirement of 40 hours in each week of the biweekly pay period
         but may vary the number of hours worked on a given workday
         during the week within the organization’s established flexible hours
         and consistent with any other limits established for the organization.

     •   Variable week schedule. Full-time employees have a basic work
         requirement of 80 hours for the biweekly pay period but may vary
         the number of hours worked on a given workday or the number of
         hours each week within the limits established for the organization.

Each of the three options described above gives employees greater flexibility
than the basic Flexitour option available at the SEC. We determined that some
other federal agencies are allowing their employees more flexibility with respect
to their arrival and departure times and the length of individual workdays within
the workweek or pay period. The Pension Benefit Guaranty Corporation and the
Department of Housing and Urban Development, for example, offer a gliding
schedule option to their employees. The Social Security Administration, the
Environmental Protection Agency, and the Federal Housing Finance Agency
offer variable day and variable week schedule options, as well as a gliding
schedule option, to their employees.

According to OPM,

         [Alternative work schedule] programs have the potential to enable
         managers and supervisors to meet their program goals while, at the
         same time, allowing employees to be more flexible in scheduling
         their personal activities. As employees gain greater control over
         their time, they can, for example, balance work and family
         responsibilities more easily, become involved in volunteer activities,
         and take advantage of educational opportunities. The employee
         benefits provided by alternative work schedule programs also are
         useful recruitment and retention tools. 28

In light of these potential outcomes, the SEC might benefit from including
additional flexible work schedule options, such as the three described above and
the options identified in table 1, among the alternative work schedules it offers to
employees.

Documentation of SEC Alternative Work Schedule Policy
During our review, we found that the SEC does not have a comprehensive
manual that addresses alternative work schedule options that are available to all
employees and, in fact, SEC employees are utilizing alternative work schedule

28
  OPM Handbook, https://www.opm.gov/oca/aws/index.asp#Authority and Responsibility.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP         September 28, 2011
Report No. 491
                                            Page 10
options that are not contained in any SEC guidance. The CBA applies to both
nonprofessional and professional SEC employees but excludes all management
officials, supervisors, and certain other employees. 29 The only alternative work
schedules that the CBA references are Flexitour with credit hours, compressed
5-4/9, and compressed 4-10. The POPPS Manual addresses only Flexitour and
5/4-9 compressed alternative work schedules, and the material related to these
alternative schedules has not been updated since it was adopted on January 20,
1995. Chapter 610.A of the POPPS Manual, which addresses Flexitour
schedules and credit hours, is inconsistent with the Flexitour provisions of the
CBA with respect to specifics such as core hours, official business hours, and
how frequently employees may request changes in their schedules. Chapter
610.C of the POPPS Manual, which addresses compressed work schedules, has
major inconsistencies with the CBA and is clearly outdated. First, it only
authorizes use of 5/4-9 compressed schedules, while the CBA also authorizes
use of 4-10 schedules. Second, as written, it applies only to individuals with
“authorized 5-4-9 compressed work schedule plans submitted by offices with
organizational units at the SEC Operations Center and Annex in Alexandria,
Virginia and within the Facilities and Printing Branches of the Office of
Administrative and Personnel Management.” For other SEC offices and
divisions, it only provides requirements for submitting a plan proposing the use of
5/4-9 compressed schedules. 30

According to OHR, even though the CBA does not cover management officials
and supervisors, the same alternative work schedules are available to and are
authorized for all SEC employees, both bargaining and nonbargaining unit
employees. OHR further stated that it is developing a new handbook, entitled
Human Capital Directive, to replace the POPPS Manual and that the new
handbook will clarify that all employees—supervisory, managerial, professional,
and nonprofessional—are covered by the same alternative work schedule
policies.

We also found that the SEC has no official form for employees to use when
requesting alternative work schedules. According to article 7 of the CBA,
employees requesting Flexitour or compressed work schedules must submit a
written request to their supervisor specifying their first, second, and third choices
for their work schedule, and they are to receive a response to their request within
14 calendar days. If an employee's request is denied, the supervisor should
provide the employee the reasons for the denial in writing. Although the POPPS
Manual refers to employees’ responsibility to obtain prior written approval for
alternative work schedules and to managers’ and supervisors’ responsibility to
approve, modify, or disapprove Flexitour schedules, 31 the manual does not refer
to procedures for submitting and approving requests for other alternative work
schedules.

29
   These other employees are described at 5 U.S.C. §§ 7112(b)(2), (3), (4), (6), and (7).
30
   POPPS Manual, ch. 610.C, “Compressed Work Schedules.”
31
   See POPPS Manual, ch. 610, §§ 5(D), 5(E),
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                  September 28, 2011
Report No. 491
                                                Page 11
Training on Alternative Work Schedules for SEC Employees
During our review, we further found that little training on alternative work
schedules is available to SEC employees. We interviewed the director of the
OHR Office of Labor and Employee Relations about communication and training
related to the alternative work schedule program at the SEC. The director said
that the CBA describes the available alternative work schedule options and is
provided to employees during new employee orientation. She also said that she
provides guidance on the program by telephone in response to inquiries from
employees but that the division does not distribute written information on
alternative work schedules to employees. In addition, she stated that when the
CBA is updated or changed, the Office of Labor and Employee Relations
provides training to all managers and the union provides training to bargaining
unit employees. Nonbargaining unit employees receive no training on alternative
work schedules, however. Citing a lack of Labor and Employee Relations staff to
conduct training and her own recent appointment, in November 2010, the
Director conceded that training on alternative work schedules for SEC staff
needs improvement and further said that she would like to offer brown bag lunch
training sessions on the topic for all managers.

We believe that employees may have used unauthorized alternative work
schedules because they and their managers lacked knowledge about authorized,
available options. This lack of knowledge may have resulted from inadequate
written information about authorized alternative work schedules and inadequate
training on alternative work schedules for managers and employees.

        Recommendation 1:

        The Office of Human Resources should take necessary actions to ensure
        that employees do not work unauthorized alternative work schedules,
        including required revisions to the collective bargaining agreement and
        steps to ensure that all Commission managers and staff are fully informed
        about which alternative work schedules are authorized.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased the OHR concurred with this
        recommendation.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 12
        Recommendation 2:

        The Office of Human Resources should ensure that the

         2 a. new Human Capital Directive addresses all alternative work
              schedules available to Securities and Exchange Commission
              employees; and

         2 b. contents of the Human Capital Directive are and remain consistent
              with the alternative work schedule components of the collective
              bargaining agreement.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 3:

        The Office of Human Resources should ensure that the new Human
        Capital Directive addresses all Securities and Exchange Commission
        employees—supervisory, managerial, professional, nonprofessional,
        bargaining unit, and nonbargaining unit employees—and contains up-to-
        date information on all alternative work schedule programs authorized by
        the Commission.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 4:

        The Office of Human Resources should

         4 a. provide comprehensive training to all employees and managers on
              all available alternative work schedule programs. This training
              should be provided to all new employees during employee
              orientation and to all employees and managers whenever
              significant changes to the policy occur, such as upon completion of
              the Human Capital Directive or adoption of a new collective
              bargaining agreement; and



Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 13
         4 b. make up-to-date information on alternative work schedules and
              policy available electronically to all employees on the Securities
              and Exchange Commission intranet site and periodically notify
              employees of its availability and location.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 5:

        The Office of Human Resources should develop an alternative work
        schedule request form. The form should contain sections for the
        requesting employee’s information and certification; the type of alternative
        work schedule requested, including specific work hours and, if applicable,
        workdays; the immediate supervisor’s approval; and, if applicable, the
        approving official’s decision.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 6:

        The Office of Human Resources, in developing the new Human Capital
        Directive, should work with the National Treasury Employees Union to
        determine whether additional alternative work schedules, such as the
        gliding, variable day, variable week, three-day workweek, and Maxiflex
        options described in the Office of Personnel Management Handbook on
        Alternative Work Schedules, should be adopted as options for Securities
        and Exchange Commission employees.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 14
Finding 2: The SEC Lacks Clear Guidance on
Overtime Compensation and Uncompensated
Services
        There is confusion among SEC employees about the types
        of compensation available for overtime hours worked,
        eligibility for specific types of compensation, and
        Commission policy on voluntary overtime. OHR policy and
        guidance on these issues are incomplete and outdated and
        in some cases inconsistent with the provisions of the current
        CBA.

SEC Workforce Categories
OPM assigns combinations of letters to designate workforce categories to
agencies that have their own unique pay plans. Since 2002, with the enactment
of the SEC’s pay parity legislation, 32 the Commission has had one of those
unique plans. Instead of General Schedule and Senior Executive Service (SES)
designations, SEC employees have SK and SO designations. SK employees are
similar to employees covered by the General Schedule pay system, and SO
employees are similar to SES members.

Types of Compensation in Lieu of Pay for Overtime Worked

Credit Hours. OPM defines credit hours as “hours within a flexible work
schedule that an employee elects to work in excess of his or her basic work
requirement so as to vary the length of a workweek or workday.” 33 Credit hours
are permitted only for employees who work flexible work schedules and only to
the extent permitted by an employee’s agency. Credit hours are not available to
employees who work compressed schedules. 34 Employees are not paid basic
pay or overtime pay for credit hours when they earn them. Instead, employees
may use credit hours during a subsequent day, week, or pay period, with
supervisory approval, to be absent from an equal number of hours of their basic
work requirement with no loss of basic pay. SES members are prohibited by
regulation from earning credit hours. 35

Compensatory Time Off. OPM defines compensatory time off as “[t]ime off with
pay in lieu of overtime pay for irregular or occasional overtime work.” 36

32
   Pub. L. No. 107-123 (Jan. 16, 2002).
33
   OPM Handbook on Alternative Work Schedules, http://www.opm.gov/oca/aws/html/define.asp. Agency
policies or union agreements may place restrictions on earning or using credit hours.
34
   See 5 U.S.C. §§ 6121 and 6122; see also OPM, Handbook on Alternative Work Schedules,
http://www.opm.gov/oca/aws/html/flex.asp, and CBA, art. 7, “Credit Hours, §§ 5(A)(4), 5(B)(4).
35
   5 C.F.R. § 610.408.
36
   OPM, Overtime Compensation (May 30, 2000), http://www.opm.gov/oca/pay/html/comp.htm.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                September 28, 2011
Report No. 491
                                               Page 15
Compensatory time off is authorized for employees who are ordered to work
overtime hours, and it may be approved both for employees who are covered by
the Fair Labor Standards Act (nonexempt employees) and those who are not
covered (exempt employees). 37 In addition, agencies may require exempt
employees whose rate of basic pay exceeds the rate of GS-10, step 10, to
accept compensatory time off rather than overtime pay for irregular or occasional
overtime work. 38 This requirement has been adopted by the SEC and appears in
both the CBA and the POPPS Manual. 39 Nonexempt employees cannot be
required to accept compensatory time off in lieu of overtime pay. 40 SES
members are not eligible to receive compensatory time off because it is
considered premium pay, and they are excluded by law from earning premium
pay, but they may receive compensatory time off for religious purposes. 41

Compensation for Overtime at the SEC
Subject to certain limitations noted above, compensation for overtime hours
worked at the SEC can take the form of credit hours, overtime pay, or
compensatory time off. As table 2 shows, credit hours are the most widely used
form of overtime compensation at the SEC. For fiscal years 2008 through 2010,
credit hours accounted for more than 60 percent of overtime compensation in
each fiscal year.

        Table 2: Hours of Overtime Compensation Received by SEC
        Employees, Fiscal Years 2008–2010
               Type of                        Fiscal Year     Fiscal Year       Fiscal Year
             Compensation                        2008            2009              2010

          Credit hours earned                   81,980             74,360         75,355

          Hours of overtime pay                 11,907             11,463         13,027
          earned

          Hours of compensatory time            32,787             37,076         34,338
          earned
          Total overtime hours                 126,674             122,899        122,720
          compensated
        Source: OIG analysis of data provided by OHR.
        Note: All numbers are rounded to the nearest whole hour.




37
   See OPM, Compensatory Time, “Employee Coverage,” http://www.opm.gov/oca/pay/html/comp.htm.
Nonexempt employees are covered by the minimum wage and overtime provisions of the Fair Labor
Standards Act and cannot be required to accept compensatory time in lieu of overtime pay.
38
   See OPM, Compensatory Time, “Mandatory,” http://www.opm.gov/oca/pay/html/comp.htm.
39
   CBA, art. 10, “Overtime and Compensatory Time, § 3(B); POPPS Manual, ch. 630.B, “Compensatory
Time,” § 4(B)(2) (Jan. 17, 1992).
40
   See OPM, Compensatory Time, “Mandatory,” http://www.opm.gov/oca/pay/html/comp.htm.
41
   5 C.F.R. § 534.408.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP              September 28, 2011
Report No. 491
                                              Page 16
Eligibility of Employees on Conforming Schedules to Earn Credit Hours.
The CBA states that “[a]n employee on a Conforming or Flexitour Schedule may
earn and use credit hours to accommodate appointments or other personal
needs without using leave.” 42 The CBA defines a conforming schedule as a
schedule that conforms to the office’s official business hours. 43 However, by law
and as noted in the OPM Handbook on Alternative Work Schedules, credit hours
are available only to employees who work flexible schedules. 44 According to
OHR, “the intent [in the CBA] was to consider the conforming schedule
tantamount to an election to work a Flexitour schedule, just matching the official
duty hours.” Nevertheless, OHR acknowledged that the current CBA language is
inconsistent with the law and that this issue should be addressed as the parties
negotiate a new CBA.

Eligibility of SO Employees for Credit Hours. According to OHR, SO
employees are eligible to earn credit hours, although the SEC has no official
written policy stating that they are eligible for credit hours. OHR’s determination
of SO eligibility is based on the language of a November 8, 2002, memorandum
containing guidance on the applicability to nonbargaining unit employees of the
August 30, 2002, CBA between NTEU and the SEC. 45 The memorandum does
not explicitly state that SO employees are entitled to earn credit hours, but it
contains the following statement: “[A]ll non-bargaining unit employees are eligible
to earn, and carry-over, 24 credit hours consistent with the provisions of the Work
Schedules article [of the CBA].” OHR stated that because the language did not
specifically exclude SO employees from earning credit hours—and because it did
explicitly exclude them from being eligible for part-time employment or working a
compressed schedule (other provisions of the 2002 CBA addressed in the
memorandum)—the memorandum was interpreted to mean that SO employees
were eligible to earn credit hours.

Although agencies may permit their SES employees to participate in flexible work
schedule programs, SES members are prohibited, as previously noted, from
earning credit hours. 46 However, the SEC pay parity legislation enacted in 2002
included a technical amendment that removed the SEC from the SES system. 47
As a result, the SEC does not have SES members; thus, the prohibition on
earning credit hours does not technically apply to the SEC’s SO employees, even
though in many respects SO employees are considered equivalent to other

42
   CBA, art. 7, “Work Schedules,” § 12(A).
43
   CBA, art. 7, “Work Schedules,” § 1(C).
44
   See 5 U.S.C. § 6121(4) and OPM, Handbook on Alternative Work Schedules,
https://www.opm.gov/oca/aws/html/flex.asp. See also 5 U.S.C. § 6121, which defines “credit hours” as “any
hours, within a flexible schedule established under section 6122 of [Title V],which are in excess of an
employee’s basic work requirement and which the employees elects to work so as to vary the length of a
workweek or a workday” (emphasis added).
45
   Collective Bargaining Agreement and Non-Bargaining Unit Employees, Memorandum From Jayne
Seidman, Associate Executive Director (Nov. 8, 2002).
46
   See 5 C.F.R. § 610.408; OPM Handbook on Alternative Work Schedules,
https://www.opm.gov/oca/aws/html/flex.asp.
47
   See 5 U.S.C. § 3132(a)(1)(E).
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                Page 17
agencies’ SES employees. According to information provided by OHR, SO
employees at the Commission do earn credit hours. Data provided by OHR
indicated that over an eight-week period beginning on June 5, 2011, and ending
on July 30, 2011, 56 SO employees earned a total of 957 credit hours. During
that period, the total earned per employee ranged from 2 hours to 52.75 hours.
During this same time period, 57 SO employees used a total of 995.5 credit
hours. The total used per employee during that period ranged from 1 hour to
50.25 hours.

Eligibility of SO Employees for Compensatory Time Off. With respect to
compensatory time off, the SEC carried over requirements from the SES system
to SO employees. The SEC does not permit SO employees to earn
compensatory time off except for religious purposes. This policy is consistent
with the statutory prohibition on SES members earning compensatory time off
except for religious purposes. By law, SES members are excluded from earning
“premium pay,” which includes overtime pay, and are therefore also excluded
from earning compensatory time off in lieu of overtime pay. 48

Despite the prohibition on SO employees earning compensatory time-off, we
found that one SO employee did earn compensatory time off during fiscal years
2008 through 2010.

Uncompensated Overtime. We found that some SEC employees are being
compensated for overtime hours worked in the form of credit hours, overtime
pay, or compensatory time off, but that other employees are not being
compensated for overtime hours worked. Employees who do not receive
compensation for overtime worked are, technically, volunteering their time.
Overtime compensation was among the topics addressed in the work/life survey
that we issued to all SEC regional and headquarters employees in December
2010. Some commenters expressed the belief that uncompensated overtime is
unfair to employees. Specifically, one respondent commented that Quicktime,
the SEC’s electronic time and attendance system, does not provide a means to
track actual time worked. He further stated that over the past three years, he had
worked over 100 hours in excess of credit hours for which he was not
compensated. Another respondent stated that he had worked more than 150
hours of unpaid overtime in the past year. Some employees, on the other hand,
indicated that they view voluntary overtime as part of the job or that taking pride
in their work and professionalism motivates them to work late.

Other comments related to a lack of clarity with respect to overtime rules at the
SEC or to informal practices related to overtime in individual offices:

     •   An employee who was also a manager commented that he found
         the SEC’s overtime rules to be unclear.

48
  5 C.F.R. § 534.408.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 18
     •   An employee stated that accountants and attorneys in his division
         are expected to show up early and leave late.
     •   An employee stated that overtime was “normal” for his office.
     •   An employee stated that, with his supervisor’s knowledge, he works
         extra hours without being compensated and that he believes it is
         acceptable for managers to approve late arrivals or early
         departures for employees if the supervisor knows that they have
         put in extra time without compensation.
     •   An employee stated that a few of the supervisors in his division
         provide some informal overtime compensation by allowing
         employees who have worked extra hours to come in late or leave
         early.

With respect to voluntary overtime, the POPPS Manual states the following:

         Employees occupying professional or supervisory positions
         are expected to have a sufficient interest in completing their
         work assignments on a timely basis or in keeping their
         workload reasonably current by performing voluntary work
         outside of regular work hours, on their own initiative,
         whenever it is necessary. Accordingly, as a general rule,
         overtime work will not be ordered or approved for
         professional, administrative and technical employees in
         grades GS-9 to GS/GM-15, where the only reasons [sic] for
         such overtime is to perform continuing regular work
         assignments. 49

In addition, the manual states that “ordered overtime work for employees in
grades GS-9 to GS/GM-15 must be for a specific work project where the
supervisor has determined that time is of the essence and it must be completed
by a specific deadline.” 50

The 2007 CBA states, however, that employees “will be compensated for
overtime work in accordance with all applicable laws, regulations, and this
Article” and that the employer “will not expect or require an employee to donate
time in lieu of proper compensation for overtime work.” 51 The CBA also states
that exempt employees who are officially ordered to perform overtime work will
receive appropriate compensation, but it does not expressly state that employees
cannot donate time on their own accord without any expectation or requirement
from their employer. 52



49
   POPPS Manual, ch. 630.B, “Compensatory Time,” § 4(A)(1) (Jan. 17, 1992).
50
   POPPS Manual, ch. 630.B, “Compensatory Time,” § 4(A)(2) (Jan. 17, 1992).
51
   CBA, art. 10, “Overtime and Compensatory Time,” §§ 1(A), 1(B).
52
   CBA, art. 10, “Overtime and Compensatory Time,” § 2(A).
Review of Alternative Work Arrangements, Overtime Compensation, and COOP      September 28, 2011
Report No. 491
                                             Page 19
In a 2005 lawsuit brought by Department of Justice attorneys (exempt employees
at the GS-15 level and below) seeking overtime compensation under the Federal
Employees Pay Act, the court held that the attorneys were not entitled to
compensation under the act for overtime work because the overtime had not
been officially ordered or approved in writing, as required, 53 even though the
government admitted that the attorneys were expected to work overtime without
compensation. 54

According to OHR, the guidelines in the POPPS Manual continue to apply to
managerial, nonbargaining unit, and bargaining unit employees, except when
they have been superseded by law, regulation, other guidance, or, for bargaining
unit employees, the CBA. The 2007 CBA appears to supersede the POPPS
Manual provisions with respect to overtime compensation for bargaining unit
employees. For the remainder of employees, there appears to be no SEC
document that supersedes the 1992 POPPS Manual policy concerning voluntary
overtime, although the Antideficiency Act contains the following voluntary
services prohibition:

         An officer or employee of the United States Government or
         of the District of Columbia government may not accept
         voluntary services for either government or employ personal
         services exceeding that authorized by law except for
         emergencies involving the safety of human life or the
         protection of property. 55

To date, though, we have found no instance where a court has held that
voluntary overtime by federal employees is barred under the Antideficiency Act.

The lack of a formal written policy on voluntary overtime appears to have led to
confusion and inconsistency within OHR as well. During our review, we asked
OHR senior staff about SEC guidelines on voluntary overtime, but we received
inconsistent responses. For example, an OHR office director acknowledged that
technically an employee cannot volunteer or donate time to the government,
while other OHR senior staff members opined that employees may voluntarily
work additional hours but cannot be ordered to work extra hours without pay.
Based upon our discussions with OHR senior officials, there seemed to be some
agreement that expecting an employee to perform significant amounts of
uncompensated overtime on a regular, recurrent basis could be inappropriate
and might be at odds with the statutory prohibition on voluntary services. We
found inconsistent views, though, with respect to the appropriateness or legality

53
   According to 5 C.F.R. § 550.111(c), “Overtime work in excess of any included in a regularly scheduled
administrative workweek may be ordered or approved only in writing by an officer or employee to whom this
authority has been specifically delegated.”
54
   John Doe v. United States, 372 F.3d 1347 (Fed. Cir. 2004), cert. denied, 544 U.S. 904 (2005). See also
John Doe v. United States, 463 F.3d 1314, 1321 (Fed. Cir. 2006) (agreeing with the government that the
Doe plaintiffs did not have not a viable claim for overtime pay), cert. denied, 549 U.S. 1321 (2007).
55
   31 U.S.C. § 1342.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                Page 20
of management’s expectation that exempt employees work some amount of
uncompensated overtime.

Uncertainty About Overtime Compensation Policy. Some of the comments
provided by respondents to our work/life survey indicated that they did not fully
understand SEC and other federal policy and restrictions related to
compensation for overtime worked. Some respondents stated their confusion
outright. One respondent said that he did not understand “how the overtime pay
versus credit hour distinction was made.” Another said that he was
underinformed about how compensatory time off, overtime pay, and credit hours
work. Other respondents, while not expressing outright confusion, provided
comments that demonstrated their lack of understanding of the agency’s
overtime compensation policy. For example, some employees stated that they
would rather receive overtime pay than credit hours, indicating a lack of
understanding of the difference between credit hours and overtime pay with
respect to their purposes and associated requirements and restrictions.

        Recommendation 7:

        The Office of Human Resources should include in the new Human Capital
        Directive clear, up-to-date information on the laws, policies, guidelines,
        and procedures related to credit hours, compensatory time off, payment
        for overtime worked, and voluntary and uncompensated services.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 8:

        The Office of Human Resources should negotiate revisions to the
        language in the collective bargaining agreement between the Commission
        and the National Treasury Employees Union with respect to the use of
        credit hours by employees working conforming schedules, ensuring that
        the revised language conforms with applicable law.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 21
        Recommendation 9:

        The Office of Human Resources should institute appropriate controls to
        ensure that Senior Officers do not receive compensatory time off.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 10:

        The Office of Human Resources should consult with the Office of the
        General Counsel and the Office of Personnel Management to determine
        whether the Securities and Exchange Commission should adopt an official
        policy that addresses whether Senior Officers are permitted to earn credit
        hours.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.


Finding 3: Promotion and Training Activities for
the SEC Telework Program Are Inadequate
        OHR has not promoted or publicized the SEC telework
        program and related policy as effectively as possible and
        has not made comprehensive telework training available to
        all SEC employees. Improvements in these areas could
        increase participation and enhance acceptance of telework
        among SEC staff and managers.

In their answers to questions in the work/life survey, many SEC employees
indicated that telework advertising and telework training at the Commission need
improvement. During interviews that we conducted as follow-up to the work/life
survey, some employees expressed concerns about the SEC’s telework policy.
Employees also stated during interviews that telework rules should be clear and
conveniently located in one place.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 22
Previous Internal Assessments of the SEC Telework Program
Two previous internal assessments of the SEC telework program have been
conducted.

The first was undertaken by the SEC Telework Coordinator and was completed
in fiscal year 2008. The report resulting from the assessment summarized
telework services and utilization at the Commission. It noted that a surge in
recurring telework agreements had resulted from the Commission’s Expanded
Telework Trial Program, which gave employees an opportunity to telework three
to five days a week. 56 The report also stated that teleworking at SEC regional
offices continued to increase at a faster rate than at headquarters.

The second assessment, completed in June 2010, was performed by the
Telework Advisory Group. The Telework Advisory Group, which was established
in 2009 by the director of OPM, consists of leaders in telework from selected
federal cabinet-level and independent agencies. The group developed a
checklist of specific factors that effective telework policies should be expected to
address. The overall objectives of the checklist were to ensure that telework
policies (1) could be clearly understood and easily used and (2) incorporated
criteria fundamental to the development and support of an effective telework
program.

In its assessment of whether the SEC’s telework policy met the first objective, the
Telework Advisory Group commented that the SEC’s policy was difficult to follow
and contained some ambiguity and redundancy. In addition, the group noted that
the Commission’s Expanded Telework Trial Program was difficult to reconcile
with the rest of the SEC’s telework policy. With respect to the second objective,
the Telework Advisory Group made numerous comments, including ones related
to unclear language, vaguely defined roles and responsibilities, unclear
descriptions of telework in situations related to COOP, and vague references to
the purpose of telework. Overall, the Telework Advisory Group recommended
that the SEC use the group’s checklist as a resource to further develop and
organize its telework policy. According to the SEC Telework Coordinator, plans
are being developed to improve the SEC telework program, and these plans will
include implementation of the Telework Advisory Group’s recommendations.

SEC Employees’ Attitudes Toward Telework
According to comments made by survey respondents during our follow-up
interviews, some SEC managers are opposed to allowing their staff to telework.
The following were among the comments we received:



56
  See CBA, art. 11, “Telework Program,” § 13, “Expanded Telework Trial Program.”
Review of Alternative Work Arrangements, Overtime Compensation, and COOP           September 28, 2011
Report No. 491
                                              Page 23
    •   Staff do not request telework because “they have heard” from
        coworkers that telework is not acceptable in their division.
    •   Employees in their division who request telework are subject to
        management reprisal.
    •   Employees in their division who request telework would be subject
        to more stringent work requirements.

In addition, some interviewees stated that management is not responding to
telework requests and is failing to notify them when their requests are approved
or to provide written responses when their requests are denied.

In response to the work/life survey question about how other SEC employees’
participation in the telework program affected them, about 75 percent of the
respondents indicated that it had “no effect.” Most of the remainder responded
that it increased their workload or made it inconvenient to reach staff or schedule
meetings.

Promotion of Telework at the SEC

We found that new SEC employees receive only very basic information about
telework during orientation. We found that the orientation materials provided do
not even include website references for telework resources or the name,
telephone number, or e-mail address of the SEC Telework Coordinator. We
believe that this information is important for new employees who have questions
about the program or related policies and procedures.

In response to the work/life survey question about the SEC’s advertisement of its
work/life programs, about 57 percent of the respondents answered that it could
be improved or needed to be improved. With respect to telework specifically,
comments included the following:

    •   “I have not seen announcements or any information regarding
        implementation of telework.”
    •   “There is a general lack of knowledge about what is available to
        employees, especially regarding ad-hoc telework agreements.
        Many of my colleagues are not taking advantage of these programs
        either because they are not aware of them or do not believe they
        would be eligible to participate.”
    •   “I have received little to no information about these programs, and
        what I have learned is through informal channels.”

Telework Guidance for Employees

In response to a question in the work/life survey about the quality of guidance
covering telework at the SEC, about 63 percent of the respondents rated the
Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 24
guidance as average, above average, or excellent. Of the remaining
respondents, about 11 percent rated it below average; about 5 percent rated it
poor; and about 21 percent said that they did not know. Respondents’ negative
comments included the following:

     •   “The telework guidance could be a lot better.”
     •   “[The SEC should] write a policy to describe what is teleworking
         and what is not teleworking.”
     •   “For telework . . . there is no guidance as to how these options are
         applicable to management.”

During our follow-up interviews with survey respondents, several suggested ways
in which the SEC could improve its telework guidance. These suggestions
included providing better guidance on what is expected of teleworkers, what
constitutes telework tools (e.g., Blackberry, laptop, personal computer),
reimbursement for telework expenses, and distance requirements for
teleworking.

Telework Training Provided to SEC Employees

The Telework Enhancement Act of 2010 requires that the head of each
executive agency ensure that an interactive telework training program is
provided to employees eligible to participate in the agency’s telework program
and to all managers of teleworkers. The law requires that employees
successfully complete the interactive training before they can enter into a written
agreement to telework. 57

Because the Telework Enhancement Act of 2010 was signed on December 9,
2010, its training requirements were not in effect during most of our fieldwork or
during the period covered by the work/life survey. Although online, interactive
telework training was and is available to SEC employees at telework.gov, the
joint OPM/General Services Administration (GSA) website, there was no
requirement that SEC employees complete any training before entering into a
telework agreement. The two courses offered at telework.gov—one for
employees and one for managers—are both intended to provide only a “brief,
practical introduction to telework” and do not contain detailed, organization-
specific information. 58 We found no specific requirements with respect to the
content of telework training provided, either for executive branch employees
generally or for SEC employees specifically.

At the SEC, several telework courses with more SEC-specific content have been
offered, but only to a limited number of employees and managers. Some

57
  Pub. L. No. 111-292, (Dec. 9, 2010). 5 U.S.C. §§ 6503(a)(1) and (a)(2).
58
  See http://www.telework.gov/tools_and_resources/training/employees/index.aspx.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP           September 28, 2011
Report No. 491
                                              Page 25
respondents to the work/life survey commented that they believe that more
telework training should be provided to SEC managers and new participants in
telework programs.

Our analysis of the training materials for the SEC telework courses revealed
some gaps in their content, particularly with respect to the telework provisions of
the CBA. The following are brief descriptions of the courses, their audiences,
and the content gaps we found.

    •   What Is Telework? (training materials developed by the SEC
        Telework Coordinator), provided in April 2010 at the Regional
        Administrative Summit and from March through July 2010 at
        Successful Leaders Program classes. This course addressed the
        definition of telework, types of telework, the location of telework
        policy, and the responsibilities of teleworkers and their supervisors.
        It did not address policy and procedures for approving and denying
        telework, managers’ right to direct an employee to report to work
        on their telework day, and managers’ ability to suspend or
        terminate telework.

    •   Working in a Flexible Workplace, developed by Work/Life
        Performance, Inc., presented six times during 2010 to the
        employees of the Division of Corporation Finance. This training
        covered existing and pending telework legislation, telework policy
        in the CBA, characteristics of a good teleworker, strategies for
        success in teleworking, and employee teleworking scenarios. The
        training did not cover a number of issues addressed in the CBA,
        including policy and procedures for discontinuing telework; what
        happens when an employee is promoted, reassigned, or detailed;
        duty station policy; employee availability; employee personal
        computer usage and the self-certification safety checklist; office
        supplies and SEC equipment; and protection of government
        records.

    •   Managing in a Flexible Workplace, developed by Work/Life
        Performance, Inc., presented four times during 2010 to the
        managers of the Division of Corporation Finance. This training
        covered existing and pending telework legislation, the advantages
        to managers of employee telework, strategies for successful
        management of teleworkers, manager scenarios, and when the
        manager is the teleworker. The training did not cover a number of
        issues addressed in the CBA, including policy and procedures for
        approving and denying telework, managers’ right to direct
        employees to report to work on their telework day, and managers’
        ability to suspend or terminate telework.

Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 26
    •   Telework Training for Supervisors, presented 20 times during
        spring 2005 to SEC supervisors by the SEC University. The
        training included discussions on benefits of and barriers to
        teleworking, eligibility criteria and telework options, techniques for
        managing teleworkers, communication strategies, spotting
        problems, security and legal issues, and procedures and access.
        The appendices to the training materials included a supervisor
        assessment tool, employee assessment tool, job assessment tool,
        supervisor checklist, a copy of the CBA telework policy, and
        procedures for accessing SEC electronic resources from off-site
        locations. The training materials also included copies of SEC Form
        1011, Telework Request and Agreement Form, and SEC Form
        1012, Telework Self-Certification Safety Checklist. Although this
        training was very detailed, it was available only to supervisors.

Some of the negative responses to work/life survey questions about the SEC’s
implementation of telework may be a consequence of managers’ and
employees’ lack of understanding of the advantages and purpose of the
program. If managers have not been trained on the benefits of telework or how
to manage a staff working remotely, they may be opposed to telework. The lack
of training for SEC employees on how to properly perform telework could affect
nonteleworkers’ morale and erode their confidence in the telework program.
Also, lack of training for teleworkers could lead to abuses of the privilege, which
could negatively affect productivity and contribute to waste of resources. In
addition, inadequate publicity about the SEC telework program and inadequate
dissemination of telework-related information to SEC employees could lead to
lower participation levels at a time when federal agencies are expected to
facilitate eligible employees’ participation in telework programs.

        Recommendation 11:

        The Office of Human Resources should ensure that the recommendations
        made by the Telework Advisory Group in its assessment of the Securities
        and Exchange Commission’s telework policy are considered, including the
        recommendation that OHR use the Telework Advisory Group’s telework
        policy evaluation checklist as a resource to further develop the
        Commission’s telework policy.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 27
        Recommendation 12:

        The Office of Human Resources should revise the one-page overview of
        telework provided to new employees to include website references for
        telework resources; the name, telephone number, and e-mail address of
        the Securities and Exchange Commission Telework Coordinator; and
        page references to article 11, Telework Program, of the 2007 collective
        bargaining agreement.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 13:

        The Office of Human Resources should provide comprehensive telework
        training sessions to Securities and Exchange Commission employees that
        address, among other things, telework tools; policies and procedures for
        discontinuing telework; what happens when an employee is promoted,
        reassigned, or detailed; duty station policy; employee availability during
        telework; employee personal computer usage; mandatory telework-related
        forms; office supplies and equipment; and protection of government
        records.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 14:

        The Office of Human Resources should provide comprehensive
        telework training sessions to Securities and Exchange Commission
        managers that address, among other things, telework tools, policies
        and procedures related to managers’ approval and denial of
        employee telework, managers’ right to direct employees to report to
        work on their telework day, and managers’ ability to suspend or
        terminate telework.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.



Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 28
        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 15:

        The Office of Human Resources should require training and recertification
        for current teleworkers and managers of teleworkers at least every two
        years.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 16:

        The Office of Human Resources should send administrative notice e-mails
        to all Securities and Exchange Commission employees twice each year
        reminding them of the Commission’s telework options and the benefits of
        participating in the program.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.


Finding 4: The Majority of Frequent Teleworkers
at SEC Headquarters Have Private Offices
        One of the justifications for permitting and encouraging telework in
        the federal government is telework’s potential to help government
        reduce real estate and energy costs. However, most of the SEC
        headquarters employees who telework at least three days a week,
        including those who telework five days a week, have private offices.
        In addition, we found that the SEC has no requirement and no
        timeframe for requiring that frequent teleworkers forgo or share
        office space.

As of December 31, 2010, 125 SEC employees were frequent teleworkers—that
is, they engaged in telework three or more days each week. Of these 125, 68
worked at SEC headquarters, and 50 of the 68 worked in the Division of
Corporation Finance. At least 10 of the 68 frequent teleworkers in headquarters
Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 29
teleworked five days a week. The majority of the frequent teleworkers at SEC
headquarters, including those who telework five days a week, have private
offices.

According to A Guide to Telework in the Federal Government,

         Federal telework programs are established primarily to meet
         agency mission and operational needs. Telework saves money by
         helping government reduce real estate and energy costs and
         promote management efficiencies. 59

In addition, GSA guidelines state that in considering whether to acquire space or
other facilities for employees, executive agency heads are required by law to
consider whether space needs can be met through alternative workplace
arrangements. 60 The guidelines also direct executive agency heads to consider
reduced facility and other costs per person when determining whether the
agency’s needs can be met through alternative workplace arrangements. 61
In 2007, the SEC initiated a 24-month expanded telework trial program that gave
employees the option of teleworking from three to five days a week during the
trial period. In its discussion of the expanded telework trial program, the 2007
CBA between the SEC and NTEU stated that participants in the program “may
be required to share office space on the days they are in the traditional office
regardless of their seniority or office arrangement at the time they apply.” 62

Despite the references to cost savings and the potential for reduced space
requirements in federal law and guidance, and the acknowledgement in the CBA
that frequent teleworkers may be required to share offices, the SEC does not
require frequent teleworkers to forgo or share office space. According to the
Acting Associate Executive Director of the Office of Administrative Services
(OAS), requiring frequent teleworkers to share offices is under consideration, but
OAS has no current plan or timeframe for implementing such a requirement. In
addition, OAS management told us that the Division of Corporation Finance,
which contains most of the SEC headquarters frequent teleworkers, opposes
requiring teleworkers to share offices. 63

By failing to require frequent and full-time teleworkers to forgo or share office
space, the SEC is not fully realizing the cost-saving potential of employee

59
   A Guide to Telework in the Federal Government, p. 2,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
60
   GSA, Federal Management Regulation Bulletin 2006-B3, Guidelines for Alternative Workplace
Arrangements, § XII, 71 Fed. Reg. 13,847. The statutory requirement referred to in the guidelines is at 40
U.S.C. § 587(c)(2).
61
   GSA, Financial Management Regulation Bulletin 2006-B3, Guidelines for Alternative Workplace
Arrangements, § XIII, 71 Fed. Reg. 13,847.
62
   Collective Bargaining Agreement, art. 11, Telework, § 13.D.8.
63
   According to management in the Division of Corporation Finance, (1) the division does not oppose
requiring teleworkers to share offices and (2) 17 of the division’s 47 “extended teleworkers” currently share
offices.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                  September 28, 2011
Report No. 491
                                                Page 30
telework and may continue to lease excessive amounts of office space.
Moreover, as telework is further encouraged for federal employees, SEC
employees are likely to increase their participation in the Commission’s telework
program. As a result, unless the SEC implements a requirement that frequent
teleworkers forgo or share office space, the issue of underutilized office space
will become even more severe, increasing the potential for wasted resources. 64

         Recommendation 17:

         The Office of Administrative Services should establish and enforce
         procedures to ensure that employees who telework three or more days a
         week do not maintain private offices, but rather share office space.

         Management Comments. OAS concurred with this recommendation.
         See Appendix V for management’s full comments.

         OIG Analysis. We are pleased that OAS concurred with this
         recommendation.


Finding 5: The SEC Telework Data Reported to
OPM Are Inconsistent With Other Telework Data
Maintained by OHR
         The telework data that OHR reports to OPM in response to
         OPM’s call for telework data are inconsistent with other
         telework data maintained by OHR. OHR is uncertain about
         the details of the automated option used to produce the
         OPM data and why the data it produces differ from other
         OHR telework data. In addition, the current SEC Microsoft
         Access telework database is not sufficient to track data for
         the new reporting requirements established by the Telework
         Enhancement Act of 2010.

Section 359 of the 2001 Department of Transportation appropriations bill required
all executive agencies to establish telecommuting policies. 65 The law also
directed OPM to ensure that this requirement was applied to 25 percent of the

64
   An investigation by the SEC OIG recently found that OAS entered into a contract to lease at least 900,000
square feet of new office space in Washington, D.C. The SEC has since arranged for other federal
agencies to occupy some of that space and is attempting to be released from its obligation for the remainder
of that space. See OIG, Report of Investigation: Improper Actions Relating to the Leasing of Office Space,
Case No. OIG-553 (May 16, 2011). Also, on March 8, 2011, the SEC extended, without competitive bidding,
the term of its lease of space in Alexandria, Virginia, by three years. We found no evidence that in making
its decision to renew this lease, the SEC considered the potential availability of unoccupied offices at Station
Place, in Washington, D.C., that are currently reserved for employees who telecommute full-time.
65
   Pub. L. No. 106-346.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                  Page 31
federal workforce by April 2001 and to an additional 25 percent in each
subsequent year. Beginning in 2001, OPM issued the annual OPM Telework
Data Call, in partnership with GSA, to track the extent of telework implementation
in federal agencies. The call provides insights into participation rates and
telework implementation strategies as captured in agency records.

OHR provided us with Excel spreadsheets containing telework data for calendar
years 2008 and 2009 and hard copies of the OPM Call for Telework Data reports
for calendar years 2008 and 2009. The Excel spreadsheets, according to OHR,
listed all SEC employees who participated in telework during the calendar year.
For the telework data reported to OPM, OHR uses the “data call for OPM” option
in Microsoft Access. According to OHR, both sets of data were developed from
data stored in the Microsoft Access telework database. That database contains
some data retrieved from SYBASE 66 and some data from telework agreements
that were entered manually into the database by OHR personnel.

We compared the data in the Excel spreadsheets to data provided in response to
the OPM Call for Telework Data reports and found that they were inconsistent for
both calendar year 2008 and calendar year 2009. As shown in table 3, the
numbers of teleworkers that OHR reported to OPM were higher than the numbers
of teleworkers shown in the Excel spreadsheets that OHR provided to us.

Table 3: SEC Telework Participation Data Reported to OPM and Telework
Participation Data Provided to the OIG, Calendar Years 2008 and 2009
                         Calendar        Calendar Year        Calendar Year        Calendar Year
                         Year 2008         2008 Data            2009 Data            2009 Data
                           Data          Provided to the       Reported to          Provided to
                        Reported to           OIG                 OPM                 the OIG
                           OPM
 Number of SEC
 employees
                                3,671                3,637               3,993                3,730
 Number of
 recurring
 teleworkers                      575                  500                 785                  625
 Number of ad
 hoc teleworkers
                                1,021                  709               1,114                  905
 Total number of
 teleworkers
 (recurring plus
 ad hoc)
                                1,596                1,209               1,899                1,530
Source: OHR. Note: The OPM Status of Telework in the Federal Government reports contain data from the
prior calendar year. That is, the 2010 report contains calendar year 2009 data; the 2009 report contains
calendar year 2008 data; and so on. The 2010 report, which contains calendar year 2009 data, is the most
recent report that OPM has released.

66
  SYBASE is a relational database that matches data by using common characteristics found within the
data set.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP            September 28, 2011
Report No. 491
                                               Page 32
For calendar year 2008, OHR reported a total of 387 more teleworkers to OPM
than were shown in the Excel spreadsheets provided to us; for calendar year
2009, OHR reported a total of 369 more teleworkers to OPM than were shown in
the spreadsheets provided to us.

The SEC Telework Coordinator said that she is not sure of the logic behind the
system calculations but continues to use the “data call for OPM” report option
because the data from this report are what have been used in the past to report
to OPM. The Access database was developed by contractors in the SEC’s Walk-
in Development Center in OIT before the current Telework Coordinator was
employed by OHR. The contractors who developed the system for producing the
Data Call for OPM report no longer work in the Walk-in Development Center.
The Telework Coordinator’s current contact for questions involving the telework
database is the manager of the Walk-in Development Center, who told us that
she did not develop and does not maintain the database but only troubleshoots
when the Telework Coordinator has problems with it.

The Telework Coordinator stated that Quicktime would be a better system for
tracking telework data but that telework tracking in Quicktime only began in
January 2010. Moreover, she said that not all employees are entering all
instances of telework in Quicktime because not all teleworkers have been coded
correctly by their timekeepers in Quicktime. If an employee is not coded as a
teleworker, Quicktime will not allow the employee to enter time teleworked. 67

We also determined after reviewing the reports produced by the SEC in response
to the OPM Call for Telework Data that the reports do not track the number of
employees whose telework agreements have been denied or terminated. The
Telework Coordinator explained that she does not have a mechanism to track
denied agreements and that information on denials is not provided to her. She
believes that office and division managers keep this information because they
are required to provide written explanations of denials to employees. The
Telework Coordinator stated that terminated agreements are also not reported to
OHR and that she would not be aware of a termination unless she were
contacted for advice on the matter. The OPM Call for Telework Data does not
require that agencies provide this information, but it asks for data on denials and
terminations from agencies that do track these numbers. 68 In addition, we
believe that tracking terminations and denials can provide useful information
about the implementation of the Commission’s telework program.


67
   On August 19, 2011, the Acting Associate Executive Director of OHR sent an e-mail to all SEC employees
that instructed them, effective immediately, to record “all time worked from an alternative worksite” on their
QuickTime timesheet. The e-mail contains detailed instructions for entering this information into QuickTime
and notes that “[a]ll teleworking employees must have an approved telework agreement in place.”
According to the e-mail, “The QuickTime system will allow employees with an approved telework agreement
to enter their telework hours.”
68
   OPM, Status of Telework in the Federal Government: Report to the Congress (February 2011), app. A,
“2010 Call for Telework Data,” p. 42,
http://www.telework.gov/Reports_and_Studies/Annual_Reports/2010teleworkreport.pdf .
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                 Page 33
The Telework Enhancement Act of 2010 establishes additional requirements for
reports submitted by OPM, including information on agencies’ progress in
meeting their goals for increasing telework participation by their employees.
Each report submitted by OPM is to include the following:

     (A) the degree of participation by employees of each executive
         agency in teleworking during the period covered by the
         report . . ., including—
                (i)      the total number of employees in the agency;
                (ii)     the number and percent of employees in the
                         agency who are eligible to telework; and
                (iii)    the number and percent of eligible employees
                         in the agency who are teleworking—
                             (I)    3 or more days per pay period;
                             (II)   1 or 2 days per pay period;
                             (III) once per month; and
                             (IV) on an occasional, episodic, or short-
                                    term basis;

     (B) the method for gathering telework data in each agency;
     (C) if the total number of employees teleworking is 10 percent
         higher or lower than the previous year in any agency, the
         reasons for the positive or negative variation;
     (D) the agency goal for increasing participation to the extent
         practicable or necessary for the next reporting period . . .;
     (E) an explanation of whether or not the agency met the goals
         for the last reporting period and, if not, what actions are
         being taken to identify and eliminate barriers to maximizing
         telework opportunities for the next reporting period;
     (F) an assessment of the progress each agency has made in
         meeting agency participation rate goals during the reporting
         period, and other agency goals relating to telework, such as
         the impact of telework on—

                    (i)   emergency readiness;
                   (ii)   energy use;
                  (iii)   recruitment and retention;
                  (iv)    performance;
                   (v)    productivity; and
                  (vi)    employee attitudes and opinions regarding
                          telework; and

     (G) the best practices in agency telework programs. 69



69
  Pub. L. No. 111-292, 5 U.S.C. § 6506(b)(2).
Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 34
OPM must submit the first report containing this information no later than 18
months after the December 9, 2010, enactment of the law and annually
thereafter. Given the requirements of the new law, OPM may ask executive
departments and agencies for additional telework-related information. Without a
system for gathering timely, accurate information on telework, the SEC will be
unable to provide the information to OPM that OPM needs to fulfill its statutory
telework reporting requirements. In addition, the Commission will be unable to
determine whether it is achieving goals and objectives for increased telework
participation and whether modifications to strategies to increase participation are
necessary.

We further found that the SEC’s Telework Coordinator has a telework program
work plan for fiscal year 2011 that includes addressing OPM reporting
requirements. The plan calls for work in five areas:
       • Meeting the requirements of The Telework
          Enhancement Act of 2010
       • Analyzing and evaluating the Expanded Telework Trial
          Program
       • Working with the Labor Relations Branch to identify
          topics and strategy for upcoming negotiations with
          NTEU
       • Improving storage and reporting of telework information,
          including research options for a new database and
          ensuring that all SEC staff are coded as default
          teleworkers in Quicktime
       • Redesigning the telework webpage to include SEC-
          specific information and links to telework articles and
          other telework resources

However, the Telework Coordinator has not developed explicit goals and
objectives to ensure that the elements of the plan are achieved or any goals and
objectives for increasing telework participation. Without accurate data on
telework participation, neither OPM nor the SEC can effectively track progress
toward meeting telework participation goals. Moreover, the SEC’s current lack of
goals or objectives for increasing telework participation may give the impression
of a lack of commitment to this aim and may hinder the effectiveness of efforts to
increase telework participation at the Commission and to assess progress.

        Recommendation 18:

        The Office of Human Resources should develop an improved telework
        database that will track the processing of telework agreements and store
        telework agreements to ensure that the data it reports to the Office of
        Personnel Management are reliable and valid.



Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 35
        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 19:

        The Office of Human Resources should require that Securities and
        Exchange Commission managers provide the Telework Coordinator with
        copies of denied or terminated telework agreements to facilitate tracking of
        such agreements.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 20:

        The Office of Human Resources should develop goals and objectives for
        accomplishing the work listed in the telework program work plan for fiscal
        year 2011 and for increasing telework participation by Securities and
        Exchange Commission employees.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.

        Recommendation 21:

        The Office of Human Resources should establish a process to monitor
        progress in meeting the Commission’s telework-related goals and
        objectives. If the goals and objectives are not being met, the Office of
        Human Resources should take action to identify and eliminate barriers to
        meeting the goals and objectives.

        Management Comments. OHR concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR concurred with this
        recommendation.


Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 36
Finding 6: Some SEC Mission-Essential
Personnel Lack Telework Agreements
         Not all SEC mission-essential employees have written
         telework agreements in place. The telework agreements of
         those who have them do not include expectations for
         emergency telework. In addition, mission-essential
         personnel are not routinely practicing their remote access
         capabilities to ensure that these capabilities will be functional
         during an actual emergency.

To determine whether the Commission’s mission-essential personnel have the
appropriate telework authority and capability to carry out essential SEC functions
during an emergency or catastrophic event, we reviewed whether these
employees had telework agreements in place and, if so, whether those
agreements included provisions for emergency telework. We found not only that
some mission-essential personnel lacked telework agreements, but also that
existing agreements did not address emergency telework.

Responsibilities of Mission-Essential Personnel
The role of mission-essential staff is to execute the SEC’s MEFs and PMEFs
under crisis conditions.

Mission-essential personnel are selected by SEC division and office heads based
on

     •   predetermined essential functions that must be performed,
         regardless of the operational status of the SEC’s primary operating
         facility;
     •   staff member’s knowledge and expertise in performing essential
         functions; and
     •   staff member’s ability to rapidly deploy to relocation site in an
         emergency situation.

COOP, as defined in National Security Presidential Directive-51/Homeland
Security Presidential Directive-20 (NSPD-51/HSPD-20) and the National
Continuity Policy Implementation Plan, is an effort within individual executive
departments and agencies to ensure that PMEFs continue to be performed
during a wide range of emergencies, including localized acts of nature, accidents,
and technological or attack-related emergencies. 70 The continuity program staff
within an agency are responsible for coordinating and overseeing the

70
  See National Continuity Implementation Plan, http://www.fema.gov/pdf/about/org/ncp/ncpip.pdf.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP             September 28, 2011
Report No. 491
                                              Page 37
development and implementation of COOP plans and supporting procedures. 71
Each agency’s COOP plan is to be the roadmap for implementing and managing
its COOP program. 72 Personnel identified as mission-essential are expected to
remain in contact with the agency at all times during any emergency closure and
may be called to work during emergencies dealing with national security,
extended emergencies, or other unique situations. 73

The SEC’s MEFs, which must be continued throughout a crisis or resumed
quickly after a disruption of normal activities, are as follows:

     •   Regulation and Policy: Interpret Rules. Activities involve the
         SEC's development and dissemination of guidance to assist
         in the interpretation and implementation of regulations and
         federal securities laws. Activities also involve clarifying and
         interpreting the applicability of rules and regulations to
         specific factual situations or to new products and industry
         practices for the benefit of investors, securities industry
         participants, other government agencies, other regulators,
         and the general public.

     •   Regulation and Policy: SEC Commission Approvals.
         Involves activities related to the steps performed by the SEC
         Commission or SEC staff on behalf of the Commission to
         formally issue an opinion or order, or to approve a
         rulemaking action.

     •   Regulatory Oversight: Review and Take Action on
         Applications for Exemption from Provisions of Securities
         Laws. These activities include receiving, reviewing, tracking,
         and providing comments and publishing notices of
         applications for exemption. Further, provides technical and
         economic analysis for recommendations and actions taken.

     •   Regulatory Oversight: Monitor Financial Markets and
         Provide Crisis Management. Includes activities to monitor
         developments that pose potential systemic risks to normal
         market operations and coordinating inter-market and
         interagency communications with financial industry
         participants, SEC registrants and financial agencies
         responding to the crisis.


71
   Department of Homeland Security, Federal Continuity Directive 1 (FCD 1), Federal Executive Branch
National Continuity Program and Requirements (February 2008), p. 3
72
   http://fema.gov/about/org/ncp/coop/index.shtm.
73
   OPM, A Federal Employee’s Emergency Guide, p. 5,
http://www.opm.gov/emergency/pdf/employeesguide.pdf.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP              September 28, 2011
Report No. 491
                                              Page 38
     •   Disseminate Information and Manage External
         Relationships: Public Access to Commission Filings and
         Information. Includes activities to process and publish
         information that is officially released by the SEC for public
         access. Activities also include managing web content for
         both the internal and public facing SEC websites and
         interfacing with media and news outlets to convey official
         SEC information. 74

PMEFs, which are a subset of the agency’s MEFs, must be performed to support
the continuation of the federal government’s national essential functions before,
during, and in the aftermath of an emergency. The SEC’s agency-level PMEFs
are covered in internal guidance entitled Regulatory Oversight: Monitor Financial
Markets and Provide Crisis Management. This guidance addresses crisis
management response and monitoring for developments caused by catastrophic
events that directly or indirectly disrupt normal financial market operations.

Telework Agreements of SEC Mission-Essential Personnel
According to OPM’s A Guide to Telework in the Federal Government, a good
telework agreement should include “[e]xpectations for emergency telework”—that
is, whether the employee in expected to work in cases of a “continuity event,”
such as a national or local emergency or another situation that disrupts normal
office operations. 75

We found that nearly half—49 percent—of SEC COOP mission-essential
personnel do not have telework agreements. Their lack of telework agreements
indicates that these employees may not be teleworking, even on an ad hoc basis,
and may not be routinely practicing their remote access capabilities. We also
determined that the telework agreements of mission-essential personnel do not
include work expectations related to emergency telework.

To make these determinations, we obtained a list from the SEC Continuity
Support Center of the 277 SEC headquarters personnel and the 120 regional
office personnel identified as mission-essential as of February 16, 2011. 76 We
compared that list to the list of SEC teleworkers for fiscal year 2010 provided by
OHR and found that 156 (56 percent) of headquarters and 40 (33 percent) of
regional office mission-essential personnel did not have telework agreements.
We then requested a sample of 36 telework agreements for the mission-essential
headquarters and regional office personnel who did have agreements in place
and found that none of those agreements included expectations for emergency

74
   SEC Continuity of Operations Plan, “Mission Essential Functions” (April 2010), pp.11-12.
75
   A Guide to Telework in the Federal Government, p. 19,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
76
   The Continuity Support Center is an SEC internal web-based system dedicated to continuity assurance
and emergency preparedness.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                September 28, 2011
Report No. 491
                                               Page 39
telework. The sample consisted of telework agreements from 15 headquarters
offices and divisions and from all 11 regional offices.

We also found that the SEC does not require its mission-essential personnel to
enter into telework agreements. The former Continuity Program Manager for the
SEC informed us that he encouraged all mission-essential personnel to request
ad hoc telework, but he also noted that the former SEC Executive Director had
approved telework by all mission-essential personnel during “COOP situations”
without requiring that such employees have telework agreements already in
place. 77 This approval was given in an October 16, 2007, memorandum to
division directors and office heads, in which the former Executive Director stated,
“By this memorandum, I am approving telework by . . . designated crisis-essential
personnel in all COOP situations.” 78 Failure to require mission-essential
personnel to enter into telework agreements may be inconsistent with the
Telework Enhancement Act of 2010, however, which requires that employees
who telework have written agreements with their managers that outline “the
specific work arrangement that is agreed to.” 79

Remote Access Testing During COOP Exercises
The National Continuity Programs Directorate within FEMA develops and
manages COOP exercise programs. These programs range from tabletop
exercises designed for federal agencies’ internal use to large, functional, full-
scale exercises involving numerous federal and nonfederal entities.

Exercise Eagle Horizon is a full scale, scenario-based exercise focusing on
federal organizations’ COOP programs in the National Capital Region. The SEC
participates annually in Exercise Eagle Horizon.

Exercise Eagle Horizon was held on May 17 through May 19 in 2010, on May 7
through May 8 in 2008, and on June 17 in 2009. Not all SEC headquarters and
regional office mission-essential participated in the Eagle Horizon exercises
during these years. The SEC asked its headquarters divisions and offices and its
regional offices to participate in each COOP exercise. A small contingent of
operations and COOP staff were deployed to an alternate facility to meet the
exercise requirements and test continuity capabilities. Approximately 35
headquarters personnel participated in Exercise Eagle Horizon in 2008;
approximately 255 headquarters and regional office personnel participated in
2009; and approximately 65 headquarters personnel participated in 2010.




77
   E-mail dated March 9, 2011, from the former SEC Continuity Program Manager.
78
   Memorandum from SEC Executive Director to SEC Division Directors and Office Heads, Telework for
Continuity Assurance (Oct. 16, 2007). In the memorandum, “crisis-essential employees” are the same as
mission-essential personnel.
79
   Pub. L. No. 111-292, 5 U.S.C. § 6502(b)(2).
Review of Alternative Work Arrangements, Overtime Compensation, and COOP             September 28, 2011
Report No. 491
                                              Page 40
During Exercise Eagle Horizon in 2009, the SEC conducted a test of its telework
capability. OIT engaged a contractor, Science Applications International
Corporation, to evaluate the Commission’s participation in the exercise. The
results of the remote access testing were included in a report issued by the
contractor. 80 According to the report, 245 SEC personnel participated in the
remote access test. These personnel included staff from SEC divisions and
offices at headquarters and in regional offices. There were 486 session logons
confirmed during the test period. 81 OIT Customer Care received 35 calls related
to network connectivity problems during the test period. 82

OIT also conducted a survey of SEC participants in the remote access test. Of
the 245 participants, 145 completed the survey. Approximately 37 percent of the
respondents indicated that they had experienced problems with remote access,
and approximately 15 percent of the respondents stated that they had contacted
OIT Customer Care as a result of problems they experienced.
During fiscal years 2008 through 2010, the SEC participated in no COOP-related
exercises other than Exercise Eagle Horizon. However, OIT sponsors and
conducts a variety of limited internal disaster recovery-related and emergency
notification system exercises each year. 83 From fiscal year 2008 through fiscal
year 2010, OIT conducted 23 such exercises. Six exercises were conducted in
2008, 8 in 2009, and 9 in 2010. The number of mission-essential personnel who
participated in these exercises was not recorded.

In A Guide to Telework in the Federal Government, OPM states that “[t]elework
must be part of all agency emergency planning.” 84 In the guide, OPM also
“strongly recommends that agencies include specific language in the telework
agreement for any employee who may potentially be asked to telework in case of
emergency situations or continuity events” and states that such employees
“should be encouraged to practice teleworking on a regular basis and as often as
possible.”85 In addition, the guide states that managers should be committed to
implementing remote work arrangements as broadly as possible to take full
advantage of them for COOP purposes and to ensure that

         •   equipment, technology, and technical support have been
             tested;


80
   Eagle Horizon ’09: Securities and Exchange Commission (SEC) Office of Information Technology (OIT)
Lessons Learned Report (July 8, 2009).
81
   G/On logons accounted for 66 logons, VPN for 85, and Citrix for 335. See table 5 for a definition of these
terms.
82
   G/On users accounted for 4 calls, VPN users for 6, Citrix users for 14, RSA token users for 1, and “other”
for 10.
83
   NotiFind is the SEC’s agency wide notification system for providing critical information to employees in the
event of an emergency.
84
   A Guide to Telework in the Federal Government, p. 33,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
85
   A Guide to Telework in the Federal Government, p. 23,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                 Page 41
        •   employees are comfortable with technology and
            communications methods; and
        •   managers are comfortable managing a distributed
            workgroup. 86

As previously noted, nearly half of the SEC’s mission-essential personnel do not
have telework agreements. In addition, according to the SEC’s Continuity
Program Manager, some SEC mission-essential personnel participating in
COOP exercises are not required to remotely access the SEC’s network during
COOP exercises. We therefore concluded that it is likely that a significant
number of essential personnel are not routinely practicing their remote access
capabilities. Failure to practice these capabilities could impair the ability of these
personnel to perform MEFs during emergency situations. When remote access
tools, technology, and technical support are not used regularly, it is not possible
to identify and correct any problems related to them.

In the work/life survey we conducted, we asked employees who had participated
in a government-wide COOP exercise at the SEC to rate their experiences with
teleworking during the exercise. About 37 percent of employees rated ease of
access as excellent; about 37 percent rated their ability to complete all assigned
telework tasks as excellent, and about 24 percent rated the timeliness of OIT’s
response to telework access issues as excellent. We also asked when
employees had last tested their remote access capability for COOP purposes.
Approximately 54 percent responded that it had been more than 6 months or that
they had never tested it. Finally, we asked employees who had been assigned a
laptop for COOP purposes whether they connected their laptops to the SEC
network every 30 days to ensure that all patches had been applied, and
approximately 43 percent responded that they did not do so.

The lack of telework agreements for all mission-essential SEC personnel, the
failure of existing telework agreements to address emergency telework, and the
lack of routine testing of remote access capabilities by mission-essential
personnel could hinder the SEC’s ability to effectively utilize its remote access
capabilities during an emergency or catastrophic event that required employees
to work off-site in order to carry out essential functions.

        Recommendation 22:

        Consistent with governing Federal Emergency Management Agency and
        Office of Personnel Management directives, and the SEC Collective
        Bargaining Agreement, the Office of Human Resources, in conjunction
        with the Office of FOIA, Records Management, and Security, should
        require all mission-essential personnel to enter into telework agreements

86
   A Guide to Telework in the Federal Government, p. 33,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP            September 28, 2011
Report No. 491
                                             Page 42
        that specifically allow them to conduct their continuity of operations
        responsibilities and the mission-essential functions they will perform
        during emergencies or agency closures.

        Management Comments. OHR and OFRMS concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR and OFRMS concurred with this
        recommendation.

        Recommendation 23:

        Consistent with governing Federal Emergency Management Agency and
        Office of Personnel Management directives, and the SEC Collective
        Bargaining Agreement, the Office of Human Resources, in conjunction
        with the Office of FOIA, Records Management, and Security, should
        require mission-essential personnel who have telework agreements to
        telework periodically to practice their assigned mission-essential and
        primary mission-essential functions.


        Management Comments. OHR and OFRMS concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OHR and OFRMS concurred with this
        recommendation.


Finding 7: The SEC COOP Plan Does Not
Comprehensively Address the Role of Telework
        The role of telework during emergencies and catastrophic
        events is not comprehensively addressed in the SEC’s
        COOP Plan. Instead, Emergency Relocation Sites are
        emphasized as the means of performing essential functions
        for COOP purposes. 87

Although telework is mentioned many times in the SEC’s COOP plan, we found
that the COOP plan did not address the telework function as comprehensively as
the Commission’s April 2009 Pandemic Influenza Preparedness Plan did.
According to A Guide to Telework in the Federal Government, “[t]elework must



87
  An Emergency Relocation Site is an alternate work site that provides the capability to perform minimum
essential department or agency functions until normal operations can be resumed.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                 September 28, 2011
Report No. 491
                                               Page 43
be part of all agency emergency planning.” 88 The guide states that management
must be committed to implementing telework as broadly as possible to take full
advantage of telework for emergency purposes and ensure that equipment and
technology have been tested, employees are comfortable with technology and
communications methods, and managers are comfortable managing a distributed
workgroup. 89 In addition, the Telework Enhancement Act of 2010 requires that
telework be incorporated as part of the COOP plans of executive agencies. 90

Contents of the SEC’s Pandemic Influenza Preparedness Plan
The SEC’s April 2009 Pandemic Influenza Preparedness Plan specifically and
comprehensively addressed telework, stating the following:

         The agency’s crisis-essential workforce will engage in sustained
         telework, linked by a variety of resilient communications equipment,
         throughout the period of its dispersal. The agency will, therefore,
         continue aggressively to pursue its program of ensuring that its
         crisis-essential workforce is fully equipped, trained, and
         demonstrably able to telework.

The plan’s section on conducting essential functions by telework addressed crisis
telework approval and policies, technology and support, telework capability,
training staff to telework effectively, exercising agency telework competence, and
expanding the agency’s telework-capable workforce. In the subsection on
expanding the agency’s telework-capable workforce, the plan stated, “While
recognizing that not all employees’ responsibilities lend themselves equally well
to telework, the agency believes that it will be better prepared to protect its
employees’ health and safety and to conduct its most essential functions, while
promoting public health objectives, if it continues to progress steadily towards
100 percent telework-capable workforce.”

Telework Provisions in the SEC’s COOP Plan
The SEC’s COOP Plan, dated April 2010, places more emphasis on essential
personnel performing their duties from relocation facilities than by telework. The
COOP Plan states that “SEC essential functions will be relocated to the one of
three Emergency Relocation Site (ERS) locations.” It further states, “Following
activation of the plan and notification of personnel, the SEC will relocate
personnel and vital records to a continuity facility . . . . SEC continuity personnel
will deploy to the assigned continuity facility to perform SEC essential functions

88
   A Guide to Telework in the Federal Government, p. 33,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
89
   A Guide to Telework in the Federal Government, p. 33,
http://www.telework.gov/guidance_and_legislation/telework_guide/telework_guide.pdf.
90
   Pub. L. No. 111-292, 5 U.S.C. § 6504(d)(1). In addition, section 6504(d)(2) of the act states that “[d]uring
any period that an executive agency is operating under a continuity of operations plan, that plan shall
supersede any telework policy.”
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                  September 28, 2011
Report No. 491
                                                 Page 44
and other continuity tasks.” The COOP Plan also notes that “SEC continuity
personnel have access to strategic business applications, market watch data
services, and high-speed data lines at its Emergency Relocation Site (ERS)
locations and by remote access.” OIT has responsibility for establishing
appropriate communications links for remote access and applications and data
access for personnel not designated as emergency responders to support the
Emergency Relocation Group. The SEC’s COOP Plan specifically acknowledges
telework as an option only with the statement that “[o]ther essential staff are put
into telework mode” during level 4 of Phase 1: Readiness and Preparedness.

Even though the SEC’s COOP Plan incorporates some elements of the
Pandemic Influenza Preparedness Plan’s detailed telework planning, the lack of
emphasis on telework in the SEC’s COOP Plan could hinder effective planning
and preparation for carrying out MEFs during emergencies and catastrophic
events.

        Recommendation 24:

        The Office of FOIA, Records Management, and Security should update
        the continuity communications section of the Securities and Exchange
        Commission’s Continuity of Operations Plan and expand it to expressly
        address conducting essential functions by telework consistent with
        governing Federal Emergency Management Agency and Office of
        Personnel Management directives, and the SEC Collective Bargaining
        Agreement. It should include subsections addressing telework capability,
        training staff to telework effectively, and exercising agency telework
        competence as detailed in the Commission’s Pandemic Influenza
        Preparedness Plan.

        Management Comments. OFRMS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFRMS concurred with this
        recommendation.



Finding 8: The SEC’s Regional Offices Lack Viable
COOP Plans
        SEC regional office directors have not fully developed
        regional-level COOP plans and therefore are not in
        compliance with federal guidance.

During our review, we determined that none of the SEC regional office COOP
plans contain all the elements of a viable continuity plan. In addition, according
to the Commission-wide COOP Plan, SEC regional office directors are
Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 45
responsible for updating regional office COOP plans, but we found that the plans
were outdated. During an interview, the SEC COOP Coordinator acknowledged
that the regional office COOP plans were very outdated and said that the SEC’s
Continuity Task Force is forming a regional team to address all of the regional
office COOP plans. 91

With respect to telework, the SEC’s regional office COOP plans, like the
Commission-wide COOP Plan, do not fully address the role of telework. Some
regional office COOP plans refer to ensuring that all staff have e-mail capabilities
at their telework location and discuss alternative telework arrangements and
assignments for mission-essential personnel and monitoring assignments of
telework and mission-essential personnel. Other regional office COOP plans
refer to ensuring that staff have the ability and equipment to telework as an
interim arrangement and to locating essential staff at either the devolution 92 site
or permitting them to telework. None of the regional office COOP plans specify
the MEFs and PMEFs to be performed during telework.

Elements of Viable Capability Continuity
Federal Continuity Directive 1, Federal Executive Branch National Continuity
Program (FCD 1), states in support of maintaining a comprehensive and effective
continuity capability, “[T]he Federal executive branch has developed and
implemented a continuity program which is composed of efforts within individual
agencies to ensure that their Mission Essential Functions . . . continue to be
performed during a wide range of emergencies, including localized acts of
nature, accidents, and technological or attack-related emergencies.” The
directive also states, “All agencies, regardless of their size or location, shall have
in place a viable continuity capability to ensure continued performance of their
agency’s essential functions under all conditions.” 93

On its website, FEMA states, “The ultimate goal of continuity in the executive
branch is the continuation of National Essential Functions (NEFs). In order to
achieve that goal, the objective for organizations is to identify their Essential
Functions (EFs) and ensure that those functions can be continued throughout, or
resumed rapidly after, a disruption of normal activities.” 94
91
   The Continuity Task Force consists of both senior-level and lower-level employees who are subject-matter
experts from the various SEC divisions and offices. Its mission is to conduct continuity planning for the
Commission.
92
   “Devolution” is defined by FEMA as the “capability to transfer statutory authority and responsibility for
essential functions from an agency’s and organization’s primary operating staff and facilities to other agency
and organization employees and facilities, and to sustain that operational capability for an extended period.”
See http://www.fema.gov/about/org/ncp/coop/index.shtm.
93
   Department of Homeland Security, Federal Continuity Directive 1 (FCD 1), Federal Executive Branch
National Continuity Program and Requirements (February 2008), p. 2.
http://www.fema.gov/pdf/about/offices/fcd1.pdf .
94
   See http://www.fema.gov/about/org/ncp/coop/index.shtm. The national essential functions are the eight
functions that the president and national leadership will focus on to lead and sustain the nation during a
catastrophic emergency: (1) preserving the constitutional form of government; (2) providing visible
leadership to the nation; (3) defending the country against all enemies; (4) maintaining and fostering
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                 Page 46
The FEMA website also lists the “elements of viable continuity capability”:

         Essential Functions—a subset of government and other
         organizational functions that are determined to be critical
         activities used to identify supporting tasks and resources that
         must be included in the agency’s and organization’s
         continuity planning process.

         Orders of Succession—essential part of an agency’s and
         organization’s continuity plan to ensure that agency and
         organizational personnel know who assumes the authority
         and responsibility of the agency’s and organization’s
         leadership if that leadership is incapacitated or becomes
         otherwise unavailable during a continuity situation.

         Delegations of Authority—establish who has the right to
         make key decisions during a continuity situation.

         Continuity Facilities—alternate facilities from which an
         agency and organization can perform its Essential Functions
         in a threat-free environment.

         Continuity Communications—the availability and redundancy
         of critical communications systems to support connectivity to
         internal and external organizations, customers, and the
         public is vital to the success of agency and organization
         operations.

         Vital Records Management—the identification, protection
         and ready availability of electronic and hard copy
         documents, references, records, information systems, data
         management software and equipment needed to support
         essential functions during a continuity situation.

         Human Capital—provides guidance to emergency
         employees and other special categories of employees who
         are activated by an agency and organization to perform
         assigned response duties during a continuity event.




effective relationships with foreign nations; (5) protecting against threats to the homeland and bringing to
justice perpetrators of crimes or attacks against the nation, its citizens, or interests; (6) providing rapid,
effective response to and recovery from an attack or other incident; (7) protecting and stabilizing the nation’s
economy and ensuring confidence in financial systems; and (8) providing for critical federal government
services. Department of Homeland Security, Federal Continuity Directive 1 (FCD 1), Federal Executive
Branch National Continuity Program and Requirements (February 2008), annex D,
http://www.fema.gov/pdf/about/offices/fcd1.pdf .
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                       September 28, 2011
Report No. 491
                                                  Page 47
        Tests, Training, and Exercises (TT&E)—Provisions made for
        the identification, training, and preparedness of personnel
        capable of relocating to alternate facilities to support the
        continuation of the performance of essential functions.

        Devolution of Control and Direction—capability to transfer
        statutory authority and responsibility for essential functions
        from an agency’s and organization’s primary operating staff
        and facilities to other agency and organization employees
        and facilities, and to sustain that operational capability for an
        extended period.

        Reconstitution—the process by which surviving and/or
        replacement agency and organizational personnel resume
        normal agency operations from the original or replacement
        primary operating facility. 95

Elements of Viable Capability Continuity in Regional Office
COOP Plans
During our review, we examined the COOP plans of each of the 11 SEC regional
offices to determine whether they contained the elements of viability continuity
capability listed in FCD 1 and on FEMA’s website. Table 4 summarizes the
results of this examination.




95
  http://www.fema.gov/about/org/ncp/coop/index.shtm#4.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 48
Table 4: Elements of Viable Continuity Capability in SEC Regional Offices’
COOP Plans
                                                                                                Salt
                                                  Ft.                                           Lake
                     Atl.   Bos.   Chi.   Den.   Worth    L.A.   N.Y.   Miami    Phil.   S.F.   City
 Essential
 functions            X             X      X       X              X        X      X       X      X
 Orders of
 succession           X             X      X                      X        X      X       X      X
 Delegation of
 authority
 Continuity of
 facilities           X
 Continuity of
 communications       X
 Vital records
 management           X             X      X                               X      X       X      X
 Human
 capital              X             X      X                      X        X      X       X      X
 Tests, training,
 and exercises               X      X                      X      X        X      X       X      X
 Devolution of
 control                     X      X                      X      X        X      X       X      X
 Reconstitution
                             X      X                      X      X        X      X       X      X
Source: OIG.

As shown in table 4, we found that none of the 11 regional offices’ COOP plans
addressed more than 7 of the 10 elements of viability continuity capability and
that 1 regional office’s plan addressed only 1 element. We also found that no
single element was addressed by all 11 offices. The element addressed most
often—by 8 of the offices—was “essential functions.” None of the regional
offices’ plans covered “delegation of authority,” however, and only 1 addressed
continuity of facilities and COOP.


Role of SEC Regional Offices in Meeting Commission-wide
COOP Objectives
The SEC’s COOP Plan, developed in accordance with FCD 1, contains the
following continuity objectives:

    •   Ensuring that the SEC can perform its essential functions under all
        conditions
    •   Reducing loss of life, safeguarding the SEC workforce, and
        minimizing property damage and loss
    •   Executing a successful order of succession in the event of a
        disruption
    •   Reducing or mitigating disruptions to operations

Review of Alternative Work Arrangements, Overtime Compensation, and COOP        September 28, 2011
Report No. 491
                                           Page 49
     •   Ensuring that the SEC has facilities where it can continue to
         perform its essential functions
     •   Protecting essential facilities, equipment, records, and other assets
     •   Achieving a timely and orderly recovery and reconstitution
     •   Ensuring and validating continuity readiness through testing,
         training, and exercises

The plan also states that the SEC’s ability to sustain its essential functions under
all foreseeable conditions “requires considerable planning throughout the SEC
and in all regional offices, strong and redundant communications capabilities, as
well as a sustained program of training, testing, and exercises.”

We found that the SEC is not meeting its continuity planning objectives at the
regional level. As noted earlier and as shown in table 4, the SEC regional offices
lack fully developed COOP plans and are therefore not adequately prepared to
fulfill their role in helping to ensure that the SEC can meet its Commission-wide
COOP objectives.

The SEC COOP Plan specifies that if catastrophic conditions were to prevent the
Commission from conducting essential operations at its headquarters location,
those operations would be conducted first, at the SEC Operations Center in
northern Virginia, and second, at the SEC’s principal long-term relocation site in
Richmond, Virginia. 96 If an emergency event made it impossible, unlawful, or
imprudent for the Commission’s mission-essential workforce to deploy to either of
those locations, and devolution of control became necessary, the agency’s New
York Regional Office would assume responsibility for conducting essential SEC
functions. If the New York Regional Office were also unable to conduct essential
SEC functions, the Chicago Regional Office would serve as the primary back-up.
The Chairman or her designee has the authority to order that certain successor
personnel disperse to other offices or locations when circumstances warrant. We
determined that neither the New York Regional Office COOP plan nor the
Chicago Regional Office COOP plan includes a strategy for supporting SEC
headquarters in case of a relocation of personnel and transfer of responsibilities.

Without adequate, comprehensive regional office COOP plans, the
Commission’s ability to meet its COOP objective of sustaining essential functions
under all foreseeable conditions may be compromised.

Effective July 25, 2011, the SEC’s Continuity Program Office realigned from the
Office of the Executive Director to the Office of Security Services. The Office of
Security Services is located within the Office of FOIA, Records Management, and
Security, which is under the Office of the Chief Operating Officer. The Director of
the Office of FOIA, Records Management, and Security informed us that senior
SEC management has directed the Office of the Chief Operating Officer to
96
  The “principal long-term relocation site” is the primary alternate location from which the SEC’s Emergency
Relocation Group would perform essential functions for up to a period of 30 days.
Review of Alternative Work Arrangements, Overtime Compensation, and COOP                   September 28, 2011
Report No. 491
                                                Page 50
perform a thorough review of the entire COOP program to ensure that the
program complies with FEMA requirements.

        Recommendation 25:

        The Office of FOIA, Records Management, and Security should instruct
        regional office directors to revise their regional office continuity of
        operations plan to address all the essential elements of viable continuity
        capability specified by the Federal Emergency Management Agency. To
        ensure that the plans are reviewed and modified timely and presented in a
        standard format, the Office of Security Services should establish timelines
        and submission criteria for the revised plans.

        Management Comments. OFRMS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFRMS concurred with this
        recommendation.

        Recommendation 26:

        The Office of FOIA, Records Management, and Security should instruct
        the directors of the appropriate regional offices to include in their continuity
        of operations plans strategies for supporting headquarters essential
        functions during devolution of control.

        Management Comments. OFRMS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFRMS concurred with this
        recommendation.

Finding 9: The SEC Has Not Tested the Maximum
User Limit for Remote Access to the SEC Network
        The maximum user limit for the SEC’s remote access
        technology has not been tested to determine whether it
        would perform adequately when fully utilized during an
        emergency or catastrophic event.

The SEC has a variety of remote access tools for teleworkers, as shown in table 5.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 51
Table 5: SEC Remote Access Tools for Teleworkers
    Remote Access Tool                                     Definition

 Outlook Web Access            A web-based application used to check e-mail through a website.
 (OWA)                         Users need an RSA token to use the site.
                               Software that enables a user to remotely access the SEC Remote
                               Electronic Terminal portal via an SEC-issued laptop or the user’s
 Citrix
                               non-SEC computer. Users need an RSA token to access the
                               SEC Remote Electronic Terminal portal.
 SEC Virtual Private           A remote access solution that requires an SEC laptop configured
 Network (VPN)                 for VPN and an RSA token for authentication.
                               A secure authentication device that allows users to connect to the
                               SEC network and meets the National Institute of Standards and
                               Technology two-factor authentication requirement. One
 RSA SecurID token
                               authentication is the user’s network password or personal
                               identification number (PIN), and the other is a password
                               generated by the RSA token, which changes every 60 seconds.
                               A USB-based device that allows a user to connect to the SEC
 G/On stick                    network and access common SEC applications or direct access
                               to the user’s SEC office computer.
Source: OIG.


Remote Access Capabilities for SEC Teleworkers

We asked respondents to our work/life survey to rate the ease of accessing the
SEC network remotely and the timeliness of OIT’s response to access issues
they encountered. About 69 percent of respondents rated “ease of accessing
the network” as above average or excellent. About 54 percent rated “timeliness
of OIT’s response” as above average or excellent. Some respondents also
provided comments along with their responses to these questions. Positive
comments included the following:

    •     “OIT deserves special recognition for the outstanding remote
          access systems they provide to employees.”
    •     “VPN and OWA work well in my case.”
    •     “Our local IT employee is outstanding in addressing needs and
          issues.”

Negative comments included the following:

    •     “I have consistently had a bad experience trying to access the SEC's
          network remotely. I usually am unable to connect using Citrix. This is the
          reason I occasionally forward work to access on my home computer.”
    •     “There is so much security software on my SEC laptop computer, it
          causes my connection to the server to be very slow or I will be dropped off
          the system without any explanation. Very frustrating.”


Review of Alternative Work Arrangements, Overtime Compensation, and COOP      September 28, 2011
Report No. 491
                                           Page 52
    •   “I have had nothing but problems with Citrix and therefore carry my SEC
        laptop back and forth to work which is not an ideal situation.”

According to OIT, its help desk processed 3,411 failure tickets related to remote
access connectivity in fiscal year 2010. OIT told us that these 3,411 tickets
represented 12.6 percent of all failure tickets reported for that year. In addition,
OIT provided us with data, summarized in table 6, on the number of failure tickets
for each remote access technology. Nearly half of the failure tickets involved
Citrix.

             Table 6: OIT Help Desk Failure Tickets Related to
             Remote Access Technology, Fiscal Year 2010
                                      Number of          Percentage of All Failure
                   Technology        Service Desk       Tickets Related to Remote
                                    Failure Tickets          Access Failures
                 VPN                             538                           15.8
                 RSA token                       323                            9.5
                 G/On                            677                           19.8
                 Citrix                        1,655                           48.5
                        a
                 Other                           218                            6.4
             Source: OIT.
             a
              “Other” includes, for example, problems with OWA, password reset when
             connecting remotely, and drive mapping through remote access.

As of the date of our fieldwork, OIT had issued approximately 3,600 RSA tokens
and approximately 1,700 G/On sticks. According to OIT, the number of devices
issued is not necessarily the same as the number actually in use.

Maximum User Limits for SEC Remote Access Technology

OIT has recently begun producing remote access reports that include daily
connections statistics. The reports track connections during weekdays, weekday
evenings, weekends, and weekend evenings for G/Ons, Citrix, VPN, and OWA.
However, OIT’s Remote Access Manager told us that OIT has not tested the
maximum user limits of the SEC’s remote access technology. OIT also told us
that the highest number of actual G/On connections to the SEC network at one
time was approximately 400. In addition, OIT stated that Citrix, G/On, OWA, and
VPN have not been fully stress-tested and expressed uncertainty about whether
the network could sustain full utilization of remote access devices. In a
comment, a respondent to the work/life survey expressed the same uncertainty:

        I worry about the operational capacity of remote access overall,
        should we experience an actual COOP-type of event in which all
        SEC HQ employees with remote access may have to work at home
        for several days or weeks. This includes technical infrastructure,
        and the crisis-essential staff's own ability to access the SEC
        network remotely. In this regard, we would benefit from conducting
        actual tests of wide-scale work-at-home drills—say, quarterly drills
Review of Alternative Work Arrangements, Overtime Compensation, and COOP          September 28, 2011
Report No. 491
                                             Page 53
        of at least one or two full workdays at home for, at the least, all HQ
        and regional office crisis-essentials and their subject matter expert
        staff upon whom they rely. . . .[O]nly by conducting live, large-scale,
        in-the-field exercises could you somewhat gauge your readiness for
        the real event.

The OIT Assistant Director for Customer Support and End-User Services said
that she and her staff had discussed a structured and systemic test of the
maximum user limit for remote access but that the testing had not been pursued.
She told us that the stress test could be performed using simulated traffic
generators to mimic the maximum user limit but that the test is best performed by
actual teleworkers because a variety of SEC applications would need to be
tested. In addition, she said that a stress test involving actual teleworkers would
give OIT the opportunity to examine its ability to respond if any issues arose
during testing.

Because of the failure to conduct stress tests of remote access capabilities, we
are concerned that significantly greater use of remote access devices and
systems could stress SEC remote access resources, including the SEC network,
and strain help desk resources. As a result, SEC users might be unable to gain
access to the system, necessary applications, and other work materials when
they cannot work on-site, and the Commission’s ability to function effectively
during emergencies or catastrophic events would be impaired. Even increased
nonemergency use, such as use resulting from increased staff size or increased
participation in the Commission’s telework program, could impair remote access
functionality.

        Recommendation 27:

        The Office of Information Technology should perform server stress tests.
        Testing should incorporate a variety of applications used with remote
        access.

        Management Comments. OIT concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 54
                                                                               Appendix I


                                   Abbreviations

CBA                             collective bargaining agreement
COOP                            continuity of operations
FEMA                            Federal Emergency Management Agency
GSA                             General Services Administration
MEF                             mission-essential function
NTEU                            National Treasury Employees Union
OHR                             Office of Human Resources
OIG                             Office of Inspector General
OIT                             Office of Information Technology
OPM                             Office of Personnel Management
OWA                             Outlook Web Access
PMEF                            primary mission-essential function
POPPS                           Personnel Operating Policies and Procedures
SEC or Commission               U.S. Securities and Exchange Commission
SES                             Senior Executive Service
SO                              Senior Officer
VPN                             virtual private network




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 55
                                                                              Appendix II


                         Scope and Methodology

Scope. We conducted our fieldwork from December 2010 to August 2011. In
general, we reviewed SEC activities related to the work/life issues addressed in
this report for fiscal years 2008 through 2010. We cited data from fiscal year
2011 with respect to SO employees’ use of credit hours. In addition, we
examined the Commission’s telework-related activities from fiscal year 2005
through fiscal year 2010 to assess changes in telework participation at the SEC
since the December 2004 enactment of Public Law 108-447, which required the
SEC to certify within two months “that telecommuting opportunities are made
available to 100 percent of the eligible workforce.”

Methodology. To carry out our review, we obtained an understanding of how
laws passed by Congress and guidance issued by the National Institute of
Standards and Technology, GSA, and OPM govern telework, alternative work
schedules, and overtime compensation. We reviewed the Commission’s internal
policies and procedures and the portions of its 2007 CBA with NTEU that apply
to telework, alternative work schedules, and overtime compensation. In addition,
we assessed the Commission’s enterprise technologies used for telework,
alternative work schedules, and overtime; examined the SEC’s Commission-wide
COOP plan and regional office COOP plans to determine whether they
adequately addressed telework and other components necessary to conduct
essential operations remotely; reviewed and assessed responses to the work/life
survey that we administered; and interviewed OHR and OIT staff with
responsibilities related to telework, alternative work schedules, and overtime.

Internal Controls. To determine whether OHR had established work/life and
COOP policies and procedures in compliance with applicable federal laws,
regulations, and guidance and consistently followed these policies and
procedures, we obtained copies of all work/life, overtime, and COOP policies and
procedures from OHR and copies of the applicable federal laws, regulations, and
guidance. We reviewed and compared the SEC’s policies and procedures to the
applicable federal laws, regulations, and guidance.

OHR staff provided documentation of two internal control evaluations related to
telework at the SEC. The first, undertaken by the SEC Telework Coordinator and
completed during fiscal year 2008, summarized telework services and utilization
at the SEC. The second, completed in June 2010 by the interagency Telework
Advisory Group established by OPM, assessed whether SEC telework policies
(1) could be clearly understood and easily used and (2) incorporated criteria
fundamental to the development and support of an effective telework program.
In addition, OHR provided us with information on the telework-related results of a
May 2010 evaluation of the SEC’s COOP program by FEMA. OHR has not


Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 56
                                                                                     Appendix II


conducted internal control assessments of SEC alternative work schedule
programs or overtime compensation.

Prior Audit Coverage. In March 2004, we issued an audit report on the SEC
work/life program. 97 The objective of the audit was to determine whether the
Office of Human Resources and Administrative Services (now OHR) managed
the SEC work/life program effectively and efficiently; whether the program met its
intended goals and objectives; whether the program was run consistent with
OPM guidance; and whether the program compared favorably with work/life
programs at other agencies. We found that implementation of the program was
generally effective, efficient, and in compliance with applicable guidance and that
it compared favorably with other agencies’ programs. The audit also included
four recommendations for improving the program, all of which have been closed.




97
  OIG, Commission Work/Life Program, Report. No. 379 (Mar. 29, 2004); http://www.sec-
oig.gov/Reports/AuditsInspections/2004/379fin.pdf
Review of Alternative Work Arrangements, Overtime Compensation, and COOP           September 28, 2011
Report No. 491
                                             Page 57
                                                                             Appendix III


                                         Criteria

Federal Employees Flexible and Compressed Work Schedules Act of 1982,
5 U.S.C. § 6120 et seq. Authorizes executive agencies to establish programs
that allow the use of flexible work schedules, including compressed work
schedules.

Voluntary Services Prohibition of the Antideficiency Act, 31 U.S.C. § 1342.
Prohibits officers or employees of the United States from accepting voluntary
services except for emergencies involving the safety of human life or protection
or property.

Public Law 106-346, Oct. 23, 2000, § 359. Required that all executive branch
agencies establish telework policies.

Public Law 107-123, Jan.16, 2002. Established pay parity for the SEC by
allowing the SEC to create a compensation system similar to the systems of
other federal financial regulators, including the authority to appoint and fix the
compensation of senior officers, and excepted the SEC from the definition of
agency for purposes of the Senior Executive Service.

Public Law 108-447, Dec. 8, 2004, § 622. Required the SEC to certify, no later
than two months after the date of the law’s enactment, that telecommuting
opportunities were made available to 100 percent of the eligible workforce. It
further requires that the SEC designate a telework coordinator to be responsible
for overseeing the implementation and operations of telecommuting programs.

Telework Enhancement Act of 2010, Public Law 111-292, Dec. 9, 2010.
Requires that, no later than 180 days after enactment, executive agencies (1)
establish telework policies; (2) determine telework eligibility for all employees;
and (3) notify all employees of their eligibility to telework. It requires the head of
each agency to establish telework training programs for workers and managers
and designate a Telework Managing Officer to oversee telework. In addition, it
requires that each agency integrate telework into its COOP planning and provide
yearly progress reports to OPM.

5 C.F.R. § 534.408. Provides that members of the SES are not eligible for
compensatory time except for religious purposes.

5 C.F.R. § 610.408. Prohibits members of the SES from accumulating credit
hours under an alternative work schedule.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 58
                                                                             Appendix III


GSA, Federal Management Regulation Bulletin 2006-B3, Guidelines for
Alternative Workplace Arrangements, Mar. 13, 2006. Establishes guidelines
for implementing and operating alternative workplace arrangements.

U.S. Office of Personnel Management, Guide to Telework in the Federal
Government, April 2011. Outlines practical information about telework to assist
federal agencies, managers, supervisors, other staff responsible for
implementing telework, and employees.

U.S. Office of Personnel Management, Handbook on Alternative Work
Schedules. Provides a framework for federal agencies to consult in establishing
alternative work schedules and contains additional information to assist agencies
in administering such programs.

SEC Personnel Operating Policies and Procedures (POPPS Manual), SECM
6-1, Chapter 6.10A, Alternate Work Schedules, Jan. 20, 1995. Establishes
SEC policies and procedures for administering the Commission’s alternate work
schedule program.

SEC Personnel Operating Policies and Procedures (POPPS Manual), SECM
6-1, Chapter 6.10B, Alternate or Flexible Work Locations, Jan. 20, 1995.
Establishes SEC policies and procedures for administering work-at-home
arrangements and authorizes a one-year experimental flexiplace pilot program.

SEC Personnel Operating Policies and Procedures (POPPS Manual), SECM
6-1, Chapter 6.10C, Compressed Work Schedules, Jan. 20, 1995.
Establishes SEC policies and procedures for administering authorized
compressed work schedule programs.

SEC Personnel Operating Policies and Procedures (POPPS Manual), SECM
6-1, Chapter 6.30B, Compensatory Time, Jan. 17, 1992. Sets forth SEC
policies and procedures for approving and using compensatory time.

SEC Memorandum. Jayne Seidman, Associate Executive Director, Office of
Administrative and Personnel Management, Nov. 8, 2002, Collective
Bargaining Agreement and Non-Bargaining Unit Employees. Clarified the
applicability of some provisions of the CBA implemented on August 30, 2002, to
nonbargaining unit employees.

SEC Memorandum. Diego T. Ruiz, Executive Director, Oct. 16, 2007,
Telework for Continuity Assurance. Approved telework for designated crisis-
essential employees in all COOP situations and for all SEC employees directed
to work away from their official workplace during a specified stage influenza
pandemic.



Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 59
                                                                             Appendix III


Collective Bargaining Agreement Between the United States Securities and
Exchange Commission and the National Treasury Employees Union, 2007,
Article 7, Work Schedules, Article 10, Overtime and Compensatory Time,
and Article 11, Telework Program. Outlines the benefits and rights of the SEC
and bargaining unit employees with respect to work schedules, overtime and
compensatory time, and telework.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 60
                                                                             Appendix IV


                       List of Recommendations

Recommendation 1:

The Office of Human Resources should take necessary actions to ensure that
employees do not work unauthorized alternative work schedules, including
required revisions to the collective bargaining agreements and steps to ensure
that all Commission managers and staff are fully informed about which
alternative work schedules are authorized.

Recommendation 2:

The Office of Human Resources should ensure that the

    2 a.    new Human Capital Directive addresses all alternative work schedules
            available to Securities and Exchange Commission employees; and

    2 b.    contents of the Human Capital Directive are and remain consistent with
            the alternative work schedule components of the collective bargaining
            agreement.

Recommendation 3:

The Office of Human Resources should ensure that the new Human Capital
Directive addresses all Securities and Exchange Commission employees—
supervisory, managerial, professional, nonprofessional, bargaining unit, and
nonbargaining unit employees—and contains up-to-date information on all
alternative work schedule programs authorized by the Commission.

Recommendation 4:

The Office of Human Resources should

   4 a.     provide comprehensive training to all employees and managers on all
            available alternative work schedule programs. This training should be
            provided to all new employees during employee orientation and to all
            employees and managers whenever significant changes to the policy
            occur, such as upon completion of the Human Capital Directive or
            adoption of a new collective bargaining agreement; and

   4 b.     make up-to-date information on alternative work schedules and policy
            available electronically to all employees on the Securities and
            Exchange Commission intranet site and periodically notify employees
            of its availability and location.

Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 61
                                                                             Appendix IV


Recommendation 5:

The Office of Human Resources should develop an alternative work schedule
request form. The form should contain sections for the requesting employee’s
information and certification; the type of alternative work schedule requested,
including specific work hours and, if applicable, workdays; the immediate
supervisor’s approval; and, if applicable, the approving official’s decision.

Recommendation 6:

The Office of Human Resources, in developing the new Human Capital Directive,
should work with the National Treasury Employees Union to determine whether
additional alternative work schedules, such as the gliding, variable day, variable
week, three-day workweek, and Maxiflex options described in the Office of
Personnel Management Handbook on Alternative Work Schedules, should be
adopted as options for Securities and Exchange Commission employees.

Recommendation 7:

The Office of Human Resources should include in the new Human Capital
Directive clear, up-to-date information on the laws, policies, guidelines, and
procedures related to credit hours, compensatory time off, payment for overtime
worked, and voluntary and uncompensated services.

Recommendation 8:

The Office of Human Resources should negotiate revisions to the language in
the collective bargaining agreement between the Commission and the National
Treasury Employees Union with respect to the use of credit hours by employees
working conforming schedules, ensuring that the revised language conforms with
applicable law.

Recommendation 9:

The Office of Human Resources should institute appropriate controls to ensure
that Senior Officers do not receive compensatory time off.

Recommendation 10:

The Office of Human Resources should consult with the Office of the General
Counsel and the Office of Personnel Management to determine whether the
Securities and Exchange Commission should adopt an official policy that
addresses whether Senior Officers are permitted to earn credit hours.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 62
                                                                             Appendix IV


Recommendation 11:

The Office of Human Resources should ensure that the recommendations made
by the Telework Advisory Group in its assessment of the Securities and
Exchange Commission’s telework policy are considered, including the
recommendation that OHR use the Telework Advisory Group’s telework policy
evaluation checklist as a resource to further develop the Commission’s telework
policy.

Recommendation 12:

The Office of Human Resources should revise the one-page overview of telework
provided to new employees to include website references for telework resources;
the name, telephone number, and e-mail address of the Securities and Exchange
Commission Telework Coordinator; and page references to article 11, Telework
Program, of the 2007 collective bargaining agreement.

Recommendation 13:

The Office of Human Resources should provide comprehensive telework training
sessions to Securities and Exchange Commission employees that address,
among other things, telework tools; policies and procedures for discontinuing
telework; what happens when an employee is promoted, reassigned, or detailed;
duty station policy; employee availability during telework; employee personal
computer usage; mandatory telework-related forms; office supplies and
equipment; and protection of government records.

Recommendation 14:

The Office of Human Resources should provide comprehensive telework
training sessions to Securities and Exchange Commission managers that
address, among other things, telework tools, policies and procedures
related to managers’ approval and denial of employee telework,
managers’ right to direct employees to report to work on their telework
day, and managers’ ability to suspend or terminate telework.

Recommendation 15:

The Office of Human Resources should require training and recertification for
current teleworkers and managers of teleworkers at least every two years.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 63
                                                                             Appendix IV


Recommendation 16:

The Office of Human Resources should send administrative notice e-mails to all
Securities and Exchange Commission employees twice each year reminding
them of the Commission’s telework options and the benefits of participating in the
program.

Recommendation 17:

The Office of Administrative Services should establish and enforce procedures to
ensure that employees who telework three or more days a week do not maintain
private offices, but rather share office space.

Recommendation 18:

The Office of Human Resources should develop an improved telework database
that will track the processing of telework agreements and store telework
agreements to ensure that the data it reports to the Office of Personnel
Management are reliable and valid.

Recommendation 19:

The Office of Human Resources should require that Securities and Exchange
Commission managers provide the Telework Coordinator with copies of denied
or terminated telework agreements to facilitate tracking of such agreements.

Recommendation 20:

The Office of Human Resources should develop goals and objectives for
accomplishing the work listed in the telework program work plan for fiscal year
2011 and for increasing telework participation by Securities and Exchange
Commission employees.

Recommendation 21:

The Office of Human Resources should establish a process to monitor progress
in meeting the Commission’s telework-related goals and objectives. If the goals
and objectives are not being met, the Office of Human Resources should take
action to identify and eliminate barriers to meeting the goals and objectives.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 64
                                                                             Appendix IV


Recommendation 22:

Consistent with governing Federal Emergency Management Agency and Office
of Personnel Management directives, and the SEC Collective Bargaining
Agreement, the Office of Human Resources, in conjunction with the Office of
FOIA, Records Management, and Security, should require all mission-essential
personnel to enter into telework agreements that specifically allow them to
conduct their continuity of operations responsibilities and the mission-essential
functions they will perform during emergencies or agency closures.

Recommendation 23:

Consistent with governing Federal Emergency Management Agency and Office
of Personnel Management directives, and the SEC Collective Bargaining
Agreement, the Office of Human Resources, in conjunction with the Office of
FOIA, Records Management, and Security, should require mission-essential
personnel who have telework agreements to telework periodically to practice
their assigned mission-essential and primary mission-essential functions.

Recommendation 24:

The Office of FOIA, Records Management, and Security should update the
continuity communications section of the Securities and Exchange Commission’s
Continuity of Operations Plan and expand it to expressly address conducting
essential functions by telework consistent with governing Federal Emergency
Management Agency and Office of Personnel Management directives, and the
SEC Collective Bargaining Agreement. It should include subsections addressing
telework capability, training staff to telework effectively, and exercising agency
telework competence as detailed in the Commission’s Pandemic Influenza
Preparedness Plan.

Recommendation 25:

The Office of FOIA, Records Management, and Security should instruct regional
office directors to revise their regional office continuity of operations plan to
address all the essential elements of viable continuity capability specified by the
Federal Emergency Management Agency. To ensure that the plans are
reviewed and modified timely and presented in a standard format, the Office of
Security Services should establish timelines and submission criteria for the
revised plans.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 65
                                                                             Appendix IV


Recommendation 26:

The Office of FOIA, Records Management, and Security should instruct the
directors of the appropriate regional offices to include in their continuity of
operations plans strategies for supporting headquarters essential functions
during devolution of control.

Recommendation 27:

The Office of Information Technology should perform server stress tests. Testing
should incorporate a variety of applications used with remote access.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 66
                                                                                                   Appendix V


                            Management’s Comments



                                                   MEMORANDUM

                                                   September 26. 201 I



                      H. David Kotz
                      Inspector   Gene.!!1     j      �




                                        �.
                                        Reso
   FROM:             Cri"'�'jd-A-
                     Acting Direaor/CblefHuman Capital Officer
                     Oft"ece ofHwnan

                     1bomas A. Bayer
                     DirectoclChief Info       .



                     Jayne Seidman
                     ActinlDI�
                                                   �
                     Office of Inforination Technology




                     otrlCe of Administrative

                     B"", W.....             R. <.Vtt&,.
                                               ....

                     DircctorlChiefFOIA      �
                     Office ofFOIA, Records Management, and Security

   SUBJECT:          OHR Manapment Response to o..ft Report No. 491, Ikview ofAlurnoftve Work
                    Arrangements, Overlime CompensatiOlf, and COOP-RelatedAcliviliell allhe SEC



   This memorandum is in response to the Office of Inspector GencnI's Draft Report No. 491, /leYiew of
   AlJemmh>e W01'kArrangemenu. OvmbM ComptmSallon, and COOP-RelatedActivities of the SEC.
   Thank you for the oppornmity to review and respond. to this report. Efforts to enhance these program
   areas were   already undCfWlly and continued during this audit process to the extent possible given our
   cunent uniQn negotiations. In particular, significant improvements have been made within our Tekwork
   program in accordance with the Telework Enhancement Act of20IO. We concur with the twenty-cigbt
   rocommendations pftsented In the report and have begun taking appropriate stepS to implement them.




   OHR concurs. OHR will continue to stay abr"cast ofthe current collective batpining �t (CBA)
   negotiations. Once the revised article on allcmative work !lChedules is finalized in the negotiations, OHR
   will infonn managers and staff of the options available.

   tteco._e.dati•• :r:a:

   OHR concurs. OHR will ensure that the new Human Capital DIRCtive addresses all alternative work
   sdlodules available to Securities and EJtcbange ComnaiSllion (SEC) employees.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP                       September 28, 2011
Report No. 491
                                                      Page 67
                                                                                                           Appendix V




     Recommendation lb,

    ORR concurs. ORR will ensure that the ne;" Human Capital Directive identified in Recommendation 2b
    is consistent with the alternative work schedule components of the collective bargaining agreement.

    Reeommeadation 3,

    ORR concurs. OHR will ensure that the new Human Capilal Directive addresses all SEC employees and
    contains up-to-date information on all altemative work schedule progrsms authorized by the Conunission.

    Reeommeadatlon 48,

    OHR concurs. OHR will provide comprehensive training to all employees and managers on all available
    alternative work schedule programs. This will be included in new employee orienlation and         as   necessary
    when mllior changes occur to policy or CBA articles. ORR will
                                                              . deliver this training once this article is
    agreed upon in the current CBA negotiations.

    Recommendation 4b,

    ORR concurs. ORR will provide up-to-date information on alternative work schedules and policies in an
    electronic fonnat to all SEC employees on the SEC intranet. OHR will periodically notifY employees of
    its availability and location. This will occur once this article is agreed upon in the current CBA
    negotiations.

    Recommendation 5,

    ORR concurs. ORR will develop an alternative work schedule request form to include the items outlined
    by the OIG in this report's recommendatinn and in compliance with the final CBA article once complete.
    Once a more robust IT solution is in place, ORR will store this infonnation electronically.

    Recommendation 6,

    ORR concurs. OUR. in collaboration with NTEU and CBA negotiations, will detennine wbether
    additional alternative work schedules as outlined in this report should be adopted   as   options for the
    Securities and Exchange COmmission.

    RecommeDdatioD 7,

    OHR concurs. ORR will develop a new Human Capital Directive which includes clear, up-to-date
    infmmation on the laws, policies, guidelines, and procedures related to credit hours, compensatory time
    off, payment for overtime worked, and volunlary and uncompensated services. This will be completed at
    the completion of the CBA article negotiation.

    Recommendation 8,

    OHR concurs. ORR will continue to collaborate with the SEC management negotiation team to address
    the use of credit hours by employees working conforming schedules. OHR will work with the team to
    negotiate and ensure that the revised lan�age confonns with applicable law.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP                            September 28, 2011
Report No. 491
                                                     Page 68
                                                                                                    Appendix V




    RecommeDdation 9:

    OHR concurs. OHR will review and identity measures to ensure that Senior Officers do not receive
    compensatory time off.

    Reeommendation 10:

    OHR concurs. OHR, in coilaboration with the Office of General Counsel and the Office of Personnel
    Management, will determine whether the SEC should adopt °an official policy that addresses whether
    Senior Officers are pennitted to   earn   credit hours.

    Reeommcndation 11:

    OHR concurs. OHR continues to consider and implement the recommendations set forth by the Telework
    Advisory Group. These were incorporated into the OHR's draft telework policy. This policy has been
    provided to the SEC management team responsible for current Collective Bargaining Unit negotiations
    underway. We will continue to communicate with the SEC negotiation team U; stress the importance of
    union adoption of the policy.

    Recommendation 12:

    OHR concurs. OHR will revise the telework infonnation provided to new SEC employees to include the
    information recommended.

    Recommendation 13:

    OHR concurs. OHR will develop and deliver comprehensive teleworl< training for employees in FY12, to
    include the recommended items outlined in the recoinmendation. Training will be offered through SEC
    University at the completion of union/management negotiations on the telework policy and CBA article.

    RecommeDdation 14:

    OHR concurs. OHR will develop and deliver comprehensive telework training specifically geared
    towards managers in FYI2, to include the recommended items outlined in the recommendation. Training
    will he offered through SEC University at the completion of union/management negotiations on the
    otelework policy and CBA article.

    Recom_ndallon 15:

    OHR concurs. OHR will offer the comprehensive telework training for emploYees and supervisors at least
    biannually and will provide customized telework training to individual offices and divisions as requested.
    OHR's draft telework policy includes the annual recertification of telework arrangements. This training
    will commence after completion of the CBA negotiations.


    Recom_ndatioa 16:

    OHR concurs. OHR will increase awareness oithe SEC Telework Program, including telework options
    and the benefits of teleworl<ing.lnfonnation will be distributed via administrative notices at least once a
    year and more frequently as appropriate/necessary.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP                        September 28, 2011
Report No. 491
                                                        Page 69
                                                                                                   Appendix V




     ReeommeDdatiOD 17:


    OAS concurs. OAS will establish and eafo""" procedures to ensure that employees who telework three or
    more day a week do not maintain private offices, ·but rather share office space. OAS will coordinate with
    the union as required.

    ReeommelldatioD 18:

    OHR concurs. OHR will collaborate with OIT in FYI2 to identitY options and an IT solution for
    developing an improved telework database, within budgetaJy constraints. This database will address the
    processing and storage oftelework agreements to ensure reliable and valid data is reported to the Office
    of Personnel Management. OHR will continue to impress and monitor time and attendance tracking for
    telework in accordan ce with the August 2011 SEC Administrative Notice.

    ReeommeDdation 1':

    OHR concurs. OHR will establish this requirement. OHR will notitY Division Heads and administrative
    office contacts of the requirement to provide a copy of denied or terminated telework agreements.

    ltecommeDdatioD 20:

    OHR concurs. OHR will develop goals and objectives for accomplishing those items on the telework
    program work plan. Many items were completed in FY II and OHR will continue to set goals and
    objectives to accomplish the remaining work in FYI2.

    ReeommeDdatioD 21:

    OHR concurs. OHR will establish telework-related goals and objectives in FY12. OHR will monitor
    progress to achieve goals and objectives and work with pertinent psrties to improve IT solutions to
    monitor progress of the telework program.

    ReeommeDdatioDoIIaDd 23:

    OHR and.OFRMS concur with both recommendations. OHR, in collaboration with OFRMS, will amend
    the CWTent SEC Form lOll, SEC Telework Reqlll!SlflltdAgf'U"",RI Form. The language will address
    COOP responsibilities, barg/lIning unit status, and eligibility criteria. Additionally, in the next COOP
    Plan revision, OFRMS intends to include language that reinforces this recommendation.

    RecommeDdattoD 24:

    OFRMS concurs. OFRMS will amend the SEC Continuity of Operations (COOP) Plan by expanding the
    section on telework   as   recommended.


    ·ReeommeDdatlou:ZS aDd 26:

    OFRMS concurs with both recommendations. OFRMS will establish timelines and submission criteria,
    and will work with staff members In the Regional Off"",s to insure that their COOP Plan updates include
    the FEMA essential elements:




Review of Alternative Work Arrangements, Overtime Compensation, and COOP                       September 28, 2011
Report No. 491
                                                    Page 70
                                                                                                     Appendix V



              •   Essential FWl(;tions                   •   Vital Records Mana_t
              •   0rdCrs of Succession                   •   Human Capital
              •   DelegatioDs of Authority               •   Test, Training one! Ex...,is. (IT&E)
              •   Continuity Facilities                  •   Devolution ofControl and Direction
              •   Continuity Communication               •
                                                             Reconstitution



   OFRMS will also wort with staff in the Headquarters and appropriate Regional Offices to identifY
   essential functions. then insure that processes to assume those functions are incorporated into the
   _ropriate COOP plans.

   Recomm.eDdatioD 27:

   OIT concurs. orr will acquire the tools required and coordinate testing of some key applications used
   with remote acces.s




Review of Alternative Work Arrangements, Overtime Compensation, and COOP                        September 28, 2011
Report No. 491
                                                    Page 71
                                                                             Appendix VI


      OIG Response to Management’s Comments

The Office of Inspector General is pleased that the Office of Human Resources,
the Office of FOIA, Records Management, and Security, the Office of
Administrative Services, and the Office of Information Technology have
concurred with all 27 recommendations addressed to their respective offices.
We are also encouraged that these offices have indicated that efforts to enhance
these program areas are already underway.

We believe that swift implementation of all of these important recommendations
will significantly enhance SEC employees’ work arrangements as well as improve
the agency’s telework and COOP-related programs. These improvements will
result in a more productive and efficient work environment for all SEC
employees.




Review of Alternative Work Arrangements, Overtime Compensation, and COOP   September 28, 2011
Report No. 491
                                           Page 72
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax: 202-772-9265
E-mail: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Telephone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
